<html>
<title> - NOMINATION OF MARIE THERESE DOMINGUEZ TO BE ADMINISTRATOR, PIPELINE AND HAZARDOUS MATERIALS SAFETY ADMINISTRATION (PHMSA), U.S. DEPARTMENT OF TRANSPORTATION</title>
<body><pre>[Senate Hearing 114-126]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-126

                 NOMINATION OF MARIE THERESE DOMINGUEZ
                   TO BE ADMINISTRATOR, PIPELINE AND
           HAZARDOUS MATERIALS SAFETY ADMINISTRATION (PHMSA),
                    U.S. DEPARTMENT OF TRANSPORTATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 22, 2015

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-740 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                    David Schwietert, Staff Director
                   Nick Rossi, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
       
       
       
       
       
       
       
       
       
       
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 22, 2015....................................     1
Statement of Senator Thune.......................................     1
Statement of Senator Booker......................................     2
Statement of Senator Ayotte......................................    19
Statement of Senator Fischer.....................................    21
Statement of Senator Sullivan....................................    22
Statement of Senator Peters......................................    25
Statement of Senator Blunt.......................................    27
Statement of Senator Cantwell....................................    28
Statement of Senator Daines......................................    30

                               Witnesses

Hon. Mark Warner, U.S. Senator from Virginia.....................     4
Marie Therese Dominguez to be Administrator, Pipeline and 
  Hazardous Materials Safety Administration (PHMSA), U.S. 
  Department of Transportation...................................     5
    Prepared statement...........................................     7
    Biographical information.....................................     8

                                Appendix

Response to written questions submitted to Marie Therese 
  Dominguez by:
    Hon. John Thune..............................................    35
    Hon. Roy Blunt...............................................    37
    Hon. Dan Sullivan............................................    38
    Hon. Steve Daines............................................    39
    Hon. Edward Markey...........................................    40
    Hon. Joe Manchin.............................................    41

 
                             NOMINATION OF
                        MARIE THERESE DOMINGUEZ
                   TO BE ADMINISTRATOR, PIPELINE AND
           HAZARDOUS MATERIALS SAFETY ADMINISTRATION (PHMSA),
                   U.S. DEPARTMENT OF TRANSPORTATION

                              ----------                              


                        WEDNESDAY, JULY 22, 2015

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune, Blunt, Ayotte, Sullivan, Gardner, 
Daines, Cantwell, Markey, Booker, Manchin, Fischer, and Peters.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. This nomination hearing will come to order.
    Today we are going to consider the nomination of Marie 
Therese Dominguez to be the next Administrator of the Pipeline 
and Hazardous Materials Safety Administration.
    PHMSA plays a key role in the infrastructure of the Nation, 
and it is important that its senior leadership be in place to 
ensure accountability to Congress and an array of stakeholders 
as we seek to improve safety and maintain and expand the 
Nation's pipeline networks.
    These pipeline and related transportation networks 
fundamentally underpin our Nation's economy. So it is important 
that those who directly oversee these networks have the 
experience and skills necessary to manage this critical 
enterprise.
    The PHMSA Administrator position has been vacant since last 
October when Cynthia Quarterman resigned. By the time President 
Obama finally announced his intention to nominate Ms. Dominguez 
on May 29, the post had been vacant for 237 days, well past the 
statutory time of 210 days contemplated by the Vacancies Act 
for a temporary appointment.
    The lack of Presidential nominations for critical safety 
positions has been a standing concern of this committee. For 
example, the White House dragged its feet in nominating someone 
to lead the Transportation Security Administration, prompting 
even The New York Times editorial page, normally quite 
deferential to the President, to express the opinion that ``the 
Obama Administration has been disturbingly slow to give the TSA 
strong leadership at the top.''
    Thankfully, once the Administration nominated a qualified 
individual to lead the TSA, the Senate was able to act quickly 
to confirm the nominee, and Admiral Neffenger was sworn in at 
the TSA only 2 weeks ago.
    Unfortunately, the Administration has also been slow in 
nominating a qualified individual to lead PHMSA.
    During a Commerce Committee hearing back in March of this 
year, Senator Daines expressed concerns to Transportation 
Secretary Anthony Foxx that a PHMSA Administrator nominee had 
yet to be named and questioned when the PHMSA Administrator 
position would be filled. Secretary Foxx was unable to shed any 
light on the delay or when a nominee could be expected.
    On May 6, Politico published an articled entitled 
``President Obama's pipeline safety agency waits for leader,'' 
observing that ``President Obama has blown past the legal 
deadline to name a permanent boss for the agency that oversees 
the safety of the Nation's oil trains and fossil fuel 
pipelines.''
    On May 20, 2015, ten Democratic Senators wrote a letter to 
President Obama calling on him to act quickly to nominate an 
Administrator for PHMSA, and noting that the most recent 
permanent Administrator left the position more than 220 days 
ago.
    It seems to take a chorus of inquiries from the media and 
the Administration's allies for it to get around to nominating 
individuals to lead critically important safety agencies.
    I am disappointed at the length of time it took for the 
President to send us a nominee for PHMSA, but he has finally 
sent us one.
    Ms. Dominguez appears to have substantial management 
experience while serving at the U.S. Postal Service and the 
Army Corps of Engineers, and we appreciate that service.
    I am concerned that her accomplishments do not appear to 
indicate expertise or experience on issues regarding pipeline 
safety or hazardous materials safety. I will be asking Ms. 
Dominguez to respond to this concern during the hearing.
    I will also be asking Ms. Dominguez about her perspective 
on some of the challenges facing the Nation's pipeline 
infrastructure, as well as the challenges the agency is facing 
with respect to delays in reports and regulations mandated by 
the 2011 Pipeline Safety Act.
    Having said all this, I would like to thank Ms. Dominguez 
for her willingness to serve the Nation in this important role, 
and I look forward to her testimony.
    With that, I would like now to turn to our distinguished 
Ranking Member, Senator Booker, for any remarks that he would 
like to make.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Mr. Chairman, I am disappointed that you 
will not allow us to put Senator Warner under oath and ask him 
some questions.
    [Laughter.]
    Senator Booker. But absent that permission, therefore I 
will open with my opening statements.
    I want to thank you, Chairman Thune. It is an honor to sit 
here, but I do so with the recognition that Senator Nelson is 
recovering now in Florida, and I just want to echo the thoughts 
of all my colleagues that we are praying for him and that he 
has a speedy recovery.
    This is an important hearing.
    And, Ms. Dominguez, congratulations on your nomination. It 
is an extraordinary thing to put yourself forward in public 
service. It is a commitment, as well as a sacrifice, and I am 
grateful that you were willing to do so.
    This is a very important job. While I am sure that most New 
Jerseyans have no idea what PHMSA is, the reality is what you 
are doing is critical for my state and our Nation's safety. New 
Jersey, for example, has the highest per capita population in 
the country. So for my state PHMSA is absolutely critical in 
that sense: the Administration is charged with overseeing the 
transportation of hazardous materials through our state. And 
this is really what your focus of leadership will be about.
    Although the uses of substances that are highly toxic is 
critical for our economy and our daily lives, their use must 
never come at the risk of human safety. We have seen how 
critical the role of PHMSA is in dealing with the movement of 
hazardous materials. For instance, PHMSA played a lead role in 
addressing safety issues that were raised by the transportation 
of crude oil on freight trains. Making sure that these trains 
that travel through our communities, our neighborhoods where 
Americans live and sleep and work--making sure that they are as 
safe as possible and moving in the best possible and safe tank 
cars is something that everyone here cares passionately about. 
And with much of New Jersey's pipeline infrastructure being 
several decades old, we look at ways to continually invest and 
improve in that system.
    Ms. Dominguez, I know that you have a solid record, as was 
said by the Chairman, of effective leadership, problem-solving 
and more in your past positions. I look forward to working with 
you on ways that we can tackle the existing challenges ahead of 
us and work on these vital issues. I am confident that Marie 
Therese Dominguez is well-suited for this role and will bring a 
high level of knowledge and expertise to the position that we 
all can benefit from.
    I look forward to today's proceedings, and I am grateful 
again for your being here.
    The Chairman. Thank you, Senator Booker, and thank you for 
very ably filling in for Senator Nelson, who we continue to 
keep in our thoughts and prayers, and are pleased to hear the 
good progress reports, and look forward to having him back on 
our panel here soon.
    And we are also delighted to have with us today one of our 
colleagues, the Senator from Virginia, Senator Warner, who has 
graced us with his presence in order to introduce our nominee 
this morning, and we want to welcome Senator Warner to the 
Committee. And please proceed with your remarks.

                STATEMENT OF HON. MARK WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Well, thank you, Mr. Chairman. It is great 
to be back in the Commerce Committee where I had the 
opportunity to serve with you and so many members for five and 
a half years. I do wonder how the Ranking Member got so far up 
the dais since he was fairly far down the dais when I was on 
the Committee.
    But it is a great opportunity for me to speak on behalf of 
my good friend. Actually Marie Therese used to work for me at 
one point. So I can speak for her both as a friend and as a 
former employer.
    Let me say at the outset I fully support her nomination as 
PHMSA Administrator.
    And I think you both made a comment that I would concur 
with. One, I wish the Administration had moved quicker on this. 
And two, PHMSA was one of these agencies that, quite honestly, 
I had never heard for 4 or 5 years ago. But as we have seen the 
amount of, particularly, oil shipment, Bakken crude in 
particular, go up over 50 percent in the last 5 years, this 
poses enormous, enormous challenges.
    In Virginia, we had a major derailment April 30 of last 
year. In Lynchburg, Virginia, we had a train derail going right 
through the heart of the city, and through simple good fortune, 
it fell into the river instead of falling into the town. An 
enormous fire took place. No one was killed, but it was just 
through the grace of God that the train did not derail in the 
other direction which could have been as devastating as some of 
the accidents that took place in Canada and elsewhere around 
the country. So making sure that we have got a qualified, 
capable Administrator of PHMSA is something that is terribly 
important.
    And let me explain why I believe that Ms. Dominguez is 
eminently qualified to do that.
    She has years of experience in both the private sector and 
the public sector. She has a strong background in 
infrastructure development and oversight with her work with the 
Army Corps of Engineers. She was Deputy Chief of Staff at FAA 
and has worked at the National Transportation Safety Board. She 
has also worked at the Postal Service.
    Marie Therese has demonstrated her commitment to public 
service, serving in two administrations and gaining strong 
managerial and infrastructure oversight experience. But she has 
also worked in the private sector, somebody who spent, I will 
say, 2 years more time in the private sector than public 
sector. I think you need to bring both sets of experience to 
the table. And in both the public sector and the private 
sector, by focusing on bottom line and thriving to make sure 
that we have got results-oriented environments.
    Now, as I mentioned, Marie Therese has worked for me in the 
past. I had her in a management position where I was very 
impressed with her capabilities. And I think she has the 
ability to lead PHMSA through the successful implementation of 
key safety reforms. I think as we talk about ways to deal with 
infrastructure, one critical part is going to be our pipelines, 
our rail systems, and others as we transport both critical 
energy but also, in some cases, hazardous materials. And this 
small, little agency that, again, I will acknowledge 5 years 
ago I did not know existed--I think it is going to play an 
extraordinarily important role in the coming decades. So I 
think with that in mind, we need a strong leader and a strong 
manager.
    PHMSA has the technical expertise. I know Ms. Quarterman, 
when she was Director--I brought her in. She had had some 
experience, but you really have to dig into the details with 
the technical people to get all this right, and you need 
somebody at the top to lead. I believe Marie Therese will do 
that.
    And I appreciate the Committee's opportunity to allow me to 
come in and put in this recommendation for my good friend. 
Thank you.
    The Chairman. Thank you, Senator Warner. We appreciate your 
words of recommendation. That obviously means a lot. It carries 
a lot of weight with members of this committee. So thanks for 
being here. Thanks for sharing that.
    And we are very delighted to welcome to our committee Ms. 
Dominguez and look forward to hearing from her and again, 
express what has already been said, and that is your 
willingness to serve and go through the process that is 
required to serve in some of these important positions. But we 
welcome you to the Committee this morning, and please proceed 
with your remarks and then we will get to some questions. Thank 
you.

          STATEMENT OF MARIE THERESE DOMINGUEZ, TO BE 
        ADMINISTRATOR, PIPELINE AND HAZARDOUS MATERIALS 
       SAFETY ADMINISTRATION (PHMSA), U.S. DEPARTMENT OF 
                         TRANSPORTATION

    Ms. Dominguez. Good morning. Chairman Thune, Ranking Member 
Booker, members of the Committee, it is an honor to appear 
before you today as the nominee for Administrator of the 
Pipeline and Hazardous Materials Safety Administration.
    I would like to thank President Obama for nominating me and 
Secretary Foxx for his support.
    I would also like to thank Senator Mark Warner, a friend 
and a leader. I am grateful to him for introducing me today.
    I am joined today by some very special people, my 
incredible parents, Margaret and Larry Dominguez. The values 
they instilled in me of family, hard work, sacrifice, and 
service to others have inspired me beyond measure, leading me 
to a career in public service. My sister Christa, brother-in-
law Sean, and my nieces Molly and Maggie could not be here 
today, but they are watching remotely. My family is my 
foundation and a true gift in my life, and I am most grateful 
for their support.
    My father served 42 years in the United States Secret 
Service, the U.S. Department of Transportation, and the United 
States Marine Corps. As a Secret Service agent, he was with 
President Reagan during the attempt on his life. From him, I 
learned how quickly a life can change and how incredibly 
rewarding it can be to keep others safe. Safety is deeply 
personal to me, and it is at the heart of everything that 
PHMSA's employees do each day.
    PHMSA's reach is vast, but the mission is concise: to 
protect people and the environment from the risks of hazardous 
materials transportation in all modes, including the 2.6 
million miles of pipeline nationwide. This safety mission is 
what drives the talented team of experts and professionals, and 
safety is what drives me in my commitment to make PHMSA the 
premier safety organization in transportation.
    As a leader, most recently at Army Civil Works, I bring to 
PHMSA a dedication to safety and public service; extensive 
experience as a senior executive in infrastructure, 
transportation, and safety; and a unique perspective on how to 
organize for success.
    My very first accident launch was in 1996 when I worked at 
the National Transportation Safety Board. It was the ValuJet 
Flight 592 crash, which claimed the lives of everyone on board. 
I witnessed firsthand the devastation that this type of tragedy 
can cause, both the loss of life and the lasting impacts to 
families and communities.
    It was also the first time I interacted with PHMSA's 
technical and safety experts. They were an integral part of the 
investigation team and contributed a critical safety solution 
by writing and enforcing regulations to prohibit oxygen 
containers for carriage in passenger aircraft.
    I have also worked with complex government organizations 
through critical periods of change.
    When I joined the Postal Service, mail volume was at record 
highs. But when the economic crisis hit, the market changes we 
thought were years out happened in a matter of months. We 
worked quickly to assess the organization and chart an 
innovative path forward, which included operational as well as 
legislative and policy solutions. The strategy hinged on the 
ability of the organization to respond to the changing 
marketplace. We worked within the organization, with Congress, 
and with our partners to implement changes that allowed the 
Postal Service to achieve financial stability.
    I join PHMSA at a similar pivotal juncture. The U.S. energy 
sector is undergoing a rapid transformation. Technology and 
innovation have brought energy independence and new products 
which improve our lives, but they also may contain hazardous 
materials that need to be safely transported. It is our 
responsibility to use our regulatory and enforcement authority 
effectively to assure all Americans that, even as the landscape 
changes, safety is a constant.
    Thanks to resources provided by Congress, PHMSA is growing 
by 25 percent to keep pace with economic growth. We need to 
stay ahead and ensure that industry and our State partners are 
maintaining the highest safety standards.
    We need to examine our processes and our structure so we 
can be responsive and drive innovation that enhances our safety 
mission. In doing so, we will be better positioned to leverage 
data, research and development, and other predictive 
capabilities to manage risk. You have my commitment that I will 
focus on the continual improvement of PHMSA's safety record and 
enforcement regime. If confirmed, I will bring strong 
leadership and vision to make PHMSA synonymous with safety, 
trust, and innovation.
    Thank you again for the opportunity to appear before you 
today. I look forward to answering any questions.
    [The prepared statement and biographical information of Ms. 
Dominguez follow:]

 Prepared Statement of Marie Therese Dominguez, Deputy Administrator, 
 Pipeline and Hazardous Materials Safety Administration, Pipeline And 
   Hazardous Materials Safety Administration, Administrator-Designate
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee, it is an honor to appear before you today as the nominee for 
Administrator of the Pipeline and Hazardous Materials Safety 
Administration (PHMSA).
    I would like to thank President Obama for nominating me and 
Secretary Foxx for his support.
    I would also like to thank Senator Mark Warner--a friend and a 
leader. I am grateful to him for his support of my nomination.
    I am joined today by some very special people--my incredible 
parents, Margaret and Larry Dominguez. The values they instilled in me 
of family, hard work, sacrifice and service to others have inspired me 
beyond measure--leading me to a career in public service. My sister 
Christa, brother-in-law Sean and my nieces Molly and Maggie couldn't be 
here today, but they are watching remotely. My family is my foundation 
and a true gift in my life, and I am most grateful for their support.
    My father served 42 years at the United States Secret Service and 
the U.S. Department of Transportation. As a Secret Service agent, he 
was with President Reagan during the attempt on his life. From him, I 
learned how quickly a life can change--and how rewarding it can be to 
keep others safe. Safety is deeply personal for me, and it is at the 
heart of everything that PHMSA's employees do each day.
    PHMSA's reach is vast, but the mission is concise: to protect 
people and the environment from the risks of hazardous materials 
transportation in all modes, including the 2.6 million miles of 
pipeline nationwide. This safety mission is what drives the talented 
team of experts and professionals, and safety is what drives me in my 
commitment to make PHMSA the premier safety organization in 
transportation.
    As a leader, most recently at Army Civil Works, I bring to PHMSA a 
dedication to safety and public service; extensive experience as a 
senior executive in infrastructure, transportation and safety; and a 
unique perspective on how to organize for success.
    My very first accident launch was in 1996, when I worked at the 
National Transportation Safety Board. It was the ValuJet Flight 592 
crash, which claimed the lives of everyone on board. I witnessed 
firsthand the devastation that this type of tragedy can cause--both the 
loss of life, and the lasting impacts to families and communities.
    It was also the first time I interacted with PHMSA's technical and 
safety experts at its predecessor agency, RSPA, the Research and 
Special Programs Administration. They were integral members of the 
investigation team and contributed a critical safety solution by 
writing and enforcing regulations to prohibit oxygen containers for 
carriage in passenger aircraft.
    I have also worked with complex government organizations through 
critical periods of change.
    When I joined the Postal Service, mail volume was at record highs. 
But when the economic crisis hit, the market changes we thought were 
years out happened in a matter of months. We worked quickly to assess 
the organization and chart an innovative path forward, which included 
operational as well as legislative and policy solutions. The strategy 
hinged on the ability of the organization to respond to the changing 
market. We worked within the organization, with Congress and with our 
partners to implement changes that allowed the Postal Service to 
achieve financial stability.
    I join PHMSA at a similar pivotal juncture. The U.S. energy sector 
is undergoing a rapid transformation. Technology and innovation have 
brought energy independence and new products which improve our lives, 
but may contain hazardous materials that need to be safely transported. 
It is our responsibility to use our regulatory and enforcement 
authority effectively to assure all Americans that, even as the 
landscape changes, safety is a constant. These and other issues will 
surely be discussed as this Committee and the Congress look to 
reauthorize pipeline and hazmat safety programs this year.
    Thanks to resources provided by Congress, PHMSA is growing by 25 
percent to keep pace with economic growth. We need to stay ahead to 
ensure that industry and our state partners are maintaining the highest 
safety standards.
    We need to examine our processes and structure so we can be 
responsive and drive innovation that enhances our safety mission. In 
doing so, we will be better positioned to leverage data, research and 
development, and other predictive capabilities to manage risk. You have 
my commitment that I will focus on the continual improvement of PHMSA's 
safety record and enforcement regime. If confirmed, I will bring strong 
leadership and vision to make PHMSA synonymous with safety, trust, and 
innovation.
    Thank you again for the opportunity to appear before you today. I 
look forward to answering any questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Marie Therese Dominguez
        Nickname: Toi

    2. Position to which nominated: Administrator, Pipeline and 
Hazardous Materials Safety Administration (PHMSA).
    3. Date of Nomination: June 2, 2015.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: 1200 New Jersey Ave, SE, Washington, DC 20590.

    5. Date and Place of Birth: El Paso, Texas; December 29, 1965.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage). Not Applicable.
    7. List all college and graduate degrees. Provide year and school 
attended.

        Smith College, B.A (1987)
        Villanova University School of Law, J.D. (1992)

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.
Management-Level Positions

  <bullet> Deputy Administrator
    Pipeline and Hazardous Materials Safety Administration (PHMSA)
    (June 2015 to present)

  <bullet> Principal Deputy Assistant Secretary of the Army for Civil 
        Works
    U.S. Department of Defense (USDOD), United States Army
    (March 2000-January 2001; July 2013-June 2015)

  <bullet> Vice President for Government Relations and Public Policy
    United States Postal Service (USPS)
    (June 2007-June 2013)

  <bullet> Partner
    FieldWorks, LLC
    (June 2004-March 2007).

  <bullet> Co-Owner and Partner
    Llamame, LLC
    (June 2004-January 2008)

  <bullet> Director of Human Capital and Performance
    Resource Consultants, Inc.
    (December 2001-June 2004)

  <bullet> Consultant
    MTD Consulting
    (March 2001-December 2001; August 2006-July 2007)

  <bullet> Deputy Chief of Staff and Counsel
    Federal Aviation Administration, U.S. Department of Transportation
    (July 1998-March 2000)

  <bullet> Special Assistant to the President and Associate Director of 
        Presidential Personnel
    The White House
    (April 1997-July 1998)
Non-Management Positions
  <bullet> Special Assistant
    National Transportation Safety Board
    (May 1996-April 1997)

  <bullet> Intergovernmental Relations Officer
    Office of the Secretary, U.S. Department of Transportation
    (July 1993-August 1994)

  <bullet> Deputy Associate Director, Office of Presidential Personnel
    The White House
    (August 1994-May 1996)

  <bullet> Regulatory Policy Analyst and Project Administrator
    Science Applications International Corporation (SAIC)
    (August 1987-August 1989)

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years.

  <bullet> Department of Defense Representative, White House Initiative 
        on Educational Excellence for Hispanics (2013 to present)

  <bullet> Member, Arlington County Transit Advisory Commission (2004-
        2008)

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years.

  <bullet> Board Member, Democracia USA (2010-2011)

  <bullet> Representative and Committee Volunteer, Smith Club of 
        Washington. Committees through the years included program, 
        admissions, and book award.) (1987-2009)

  <bullet> Co-Owner and Partner, Llamame, LLC (June 2004-January 2008)

  <bullet> Consultant, MTD Consulting (March 2001-December 2001; August 
        2006-July 2007)

  <bullet> Partner, Fieldworks, LLC (June 1994-March 2007)

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

  <bullet> Member, Belizean Grove/Tara (2012-June 2015)*

  <bullet> Member, 116 Club (2006 to present)

  <bullet> Member, Maryland State Bar (1992 to present)

  <bullet> Member, Maryland State Bar Association (1992 to present)

  <bullet> Member, Smith Club of Washington (1987 to present)

    *This is a professional organization in which membership is limited 
to women.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.

----------------------------------------------------------------------------------------------------------------
                                                                                            Date         Amount
----------------------------------------------------------------------------------------------------------------
Richardson for President                                                                   01/08/2008    $500.00
Friends of Hillary                                                                         05/13/2007    $500.00
Hillary Clinton for President                                                              03/21/2007  $1,000.00
Friends of Mark Warner                                                                     11/04/2008    $500.00
 
Rendered Services:
Field Consultant, Democratic Congressional Campaign Committee (2006)
Senior Advisor, Forward Together PAC (2006)
----------------------------------------------------------------------------------------------------------------

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

  <bullet> Keynote Speaker, Annual LATINA Symposium, Latina Style 
        Magazine (2014; 2011)

  <bullet> Top 25 Executive, Hispanic Business Magazine's ``2010 
        Corporate Elite'' (2010)

  <bullet> Recipient, Postal Board of Governors Award (2009)

  <bullet> Recipient, Herman Mitchell Schwartz Award for the most 
        significant contribution to the achievement of equality of 
        opportunity and treatment of women in the legal community, 
        Villanova University Law School (1992)

  <bullet> Outstanding Honorary Law Student, National Association of 
        Women Lawyers (1992)

  <bullet> Recipient, Martin Luther King, Jr. Scholarship, Pennsylvania 
        Legal Services (1992)

  <bullet> Chair, Villanova University Law School Honor Board (1992)

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed: Not Applicable.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: Not Applicable.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    Over the course of my 16 years in public service, I have held 
positions of increasing responsibility in agencies focused on 
logistics, transportation, and infrastructure, each with significant 
operations, regulatory and oversight responsibilities. I have worked on 
policy issues at safety-focused agencies to include the NTSB and the 
FAA. I began my professional career at the U.S. Department of 
Transportation, working with state and local leaders, and industry 
groups on the implementation of the first Intermodal Surface 
Transportation and Efficiency Act.
    For the last decade, I have served as an executive and senior 
leader at the United States Postal Service and the Department of 
Defense, Army Civil Works. I know the public policy, administrative, 
regulatory and legislative processes and how to effectuate positive 
change in the public sector. I have worked effectively with 
stakeholders to include Congress, the Executive Branch, industry, labor 
and non-profits to develop legislative and policy solutions to 
difficult problems.
    As an executive, I have led organizations through significant 
organizational change required as a result of various factors--from the 
aftermath of 9/11 to the economic downturn. I have assessed, developed 
policy and legislative solutions and implemented program and 
operational changes for Federal agencies, including working to 
restructure the Postal Service, to reorganizing family support services 
for Army Guard and Reserve family programs, post-9/11.
    Clear and effective communication and transparency with employees 
and all partners is critical to success in achieving organizational 
change. I am a proven leader, capable of effectively managing people 
and financial resources to develop and implement solutions.
    My career has been dedicated to public service. Americans count on 
their government to keep them safe. If confirmed to serve as PHMSA 
Administrator, I would bring my experience leading change to PHMSA and 
develop and implement policy that will enhance safety in the 
transportation of hazardous materials.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed as Administrator, my responsibility would be to lead 
PHMSA in carrying out its mission of protecting people and the 
environment from the risks of hazardous materials transportation, while 
providing accountability and transparency of Federal taxpayer 
resources.
    Over the course of my career, I have managed people and budgets for 
various Federal agencies. In my position as Principal Deputy Assistant 
Secretary of the Army for Civil Works, my responsibilities included 
working with the Assistant Secretary to establish policy direction and 
provide supervision for the Department of the Army Civil Works program. 
Specifically, this included providing policy, budget ($5B annual 
appropriation) and performance oversight of the 35,000 person U.S. Army 
Corps of Engineer programs and budget.
    As Vice President for Government Relations and Public Policy at the 
United States Postal Service, I managed two large divisions, both 
Government Relations (47 people) and Stamp Services components (147 
people) and a budget of $80 million, generating over $500 million in 
annual revenue.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    The primary challenge is to achieve the goals and mission of the 
agency to safely transport hazardous materials, with no resulting harm. 
This must be achieved by developing and implementing national policy, 
setting and enforcing standards, educating all stakeholders, conducting 
research to prevent incidents and preparing the public and first 
responders to reduce consequences if an incident occurs.
    In today's evolving transportation and energy landscape, with the 
increased movement of crude by rail and pipeline, new and aging 
infrastructure, and evolving technology--preventing and mitigating risk 
are primary to PHMSA's goals and objectives. To address these issues 
and advance the agency forward, the following challenges need to be 
addressed:

  <bullet> Determine if the structure and functions of the agency are 
        organized to optimize all resources, improve efficiency, 
        enhance safety and drive innovation

    <ctr-circle> Hire and train personnel that have been provided by 
            Congress

    <ctr-circle> Improve data collection and analysis to better inform 
            risk management, decision-making and operations

    <ctr-circle> Assess agency legal authorities in order to develop 
            enhanced enforcement Capabilities

  <bullet> Address legislative requirements and safety recommendations

    <ctr-circle> Work to complete Congressional requirements mandated 
            in Pipeline Safety Act 2011 and MAP-21 to include 
            rulemakings

    <ctr-circle> Engage with Congress and stakeholders to ensure 
            reauthorization of the Pipeline Safety Act and of hazardous 
            materials authorities through the surface transportation 
            bill

    <ctr-circle> Address outstanding safety recommendations, including 
            those from NTSB, GAO, and the Office of the Inspector 
            General

  <bullet> Improve communication and transparency

    <ctr-circle> Improve partnerships with state and local governments, 
            the industry and other key stakeholders to include the 
            Congress

    <ctr-circle> Engage key communities in the development and 
            implementation of rules and policies
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
Designated Agency Ethics Official to identify any potential conflicts 
of interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with DOT's Designated Agency Ethics Official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
Designated Agency Ethics Official to identify any potential conflicts 
of interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with DOT's Designated Agency Ethics Official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    In my years with the U.S. Post Office, I managed the legislative 
and public policy objectives of the organization before the Congress. 
Significant policy matters at the time centered on legislation 
concerning postal reform efforts.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
Designated Agency Ethics Official to identify any potential conflicts 
of interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with DOT's Designated Agency Ethics Official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? If yes:

        a. Provide the name of agency, association, committee, or 
        group;

        b. Provide the date the citation, disciplinary action, 
        complaint, or personnel action was issued or initiated;

        c. Describe the citation, disciplinary action, complaint, or 
        personnel action;

        d. Provide the results of the citation, disciplinary action, 
        complaint, or personnel action.

    No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain.
    Not to my knowledge.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                   Resume of Marie Therese Dominguez
Experience

U.S. Department of Transportation, Pipeline and Hazardous Materials 
Safety Administration, Washington, DC
Deputy Administrator (06/22/15-present)

  <bullet> Execute PHMSA's mission to protect people and the 
        environment from the risks inherent in the transportation of 
        hazardous materials. PHMSA's responsibilities include the 
        development and enforcement of regulations for the safe, 
        reliable and environmentally sound operation of the Nation's 
        gas and liquid pipeline transportation system and the shipment 
        of hazardous materials by rail, highway, water and air.

U.S. Department of Defense, United States Army, The Pentagon, 
Washington, DC
Principal Deputy Assistant Secretary of the Army for Civil Works (07/
13-06/15; 
03/00-01/01)

  <bullet> Provided policy, management, budget and performance 
        oversight of the U.S. Army Corps of Engineers Civil Works 
        program ($5B annual appropriation) for water resources 
        infrastructure development in navigation, flood control, 
        hydroelectric power generation, municipal and industrial water 
        supply, outdoor recreation activities, fish and wildlife 
        habitat restoration and ecosystems management.

  <bullet> Provide direction on the Department of the Army's policies 
        related to the Corps regulatory programs.

  <bullet> Led policy initiatives on alternative financing for civil 
        works projects, streamlining infrastructure permitting, and 
        climate resilience.

United States Postal Service, Washington, DC
Vice President for Government Relations and Public Policy (06/07-06/13)

  <bullet> Managed the legislative and public policy objectives of the 
        United States Postal Service, a $67B organization, with 574,000 
        employees, processing and delivering 563M pieces of mail and 
        packages per day to homes and businesses throughout the world.

  <bullet> Direct report to the Postmaster General, the Deputy 
        Postmaster General and the Postal Board of Governors advising 
        on government relations, public policy and stamp services 
        issues.

  <bullet> Developed legislative proposals and implemented targeted 
        communications strategies around authorizing and appropriations 
        legislation in support of corporate strategic objectives.

  <bullet> Managed group of 47 legislative analysts and government 
        relation's liaisons as well as executive correspondence unit 
        handling over 12k letters per year from Members of Congress.

  <bullet> Served as primary liaison to the Executive branch 
        specifically, the White House, the Office of Management and 
        Budget, the National Economic Council and various cabinet 
        agencies.

  <bullet> Responsible for legislative liaison and outreach with all 
        Federal agencies, state and local governments; and postal 
        stakeholders including postal labor unions, industry and 
        consumer interests.

  <bullet> Managed Corporate Information and Archival programs 
        including the corporate Library and the Postal Historian's 
        offices.

Stamp Services

  <bullet> Provided executive leadership to Stamp Services, a key 
        business unit within the USPS generating over $500M in annual 
        revenue and comprised of 143 personnel responsible for subject 
        selection, art design, production, manufacturing/printing, and 
        fulfillment of all stamps and retail philatelic products 
        produced and sold by the Postal Service. Oversaw the postal 
        fulfillment center based in Kansas City, Missouri that services 
        usps.com and all Internet and philatelic purchase orders.

  <bullet> Managed cost reduction efforts--25 percent over three years, 
        resulting in cost savings of $20M.

  <bullet> Directed strategic effort to develop comprehensive P&L 
        statement quantifying all costs and expenditures for the stamp 
        program.

Fieldworks, LLC, Washington, DC
Partner (06/04-03/07)

  <bullet> Woman and Hispanic owned political consulting firm 
        specializing in grassroots organizing and customized field 
        strategies.

  <bullet> Served as field and turnout consultant for Democratic 
        Congressional Campaign Committee (DCCC) and the Democratic 
        National Committee (DNC).

Llamame, LLC, Washington, DC
Co-Owner and Partner (6/04-01/08)

  <bullet> Created, owned and operated a bilingual communications firm 
        specializing in culturally conscious phone, radio and Internet 
        messaging strategies directed to Latino audiences in both 
        Spanish and English.

Resource Consultants, Inc., Vienna, VA
Director of Human Capital and Performance (12/01-06/04)

  <bullet> Management consultant focused on organizational development 
        including business process re-engineering, workforce assessment 
        and transformation, strategic planning, training and diversity.

  <bullet> Lead multi-million dollar consulting projects for Federal 
        clients including the FBI, the Farm Credit Administration, the 
        U.S. Army Guard and Reserve and the U.S. Air Force.

  <bullet> First to analyze and develop baseline of family support 
        services for deployed military service members. Our assessment 
        led to the development of comprehensive recommendations for 
        enhancement of funding and expansion of family support services 
        for Army Guard and Reserve components, nationwide.

  <bullet> Lead organizational assessment of FBI immediately after 9/
        11. Findings and analysis focused on organizational structure, 
        staffing and workforce capabilities to address changing mission 
        in post-9/11 environment.

  <bullet> Lead team of 8 MBA's, Ph.D.'s, subject matter experts and 
        support contractors.

MTD Consulting, Arlington, VA (3/01-12/01 and 8/06-7/07)
    Developed political, legislative and field strategies for 
government and non-profit organizations including:

  <bullet> Senior Advisor to Governor Mark Warner, Forward Together 
        PAC. Developed political strategies and organizing plans for 
        early Presidential primary states.

  <bullet> Puerto Rico Federal Affairs Administration (PRFAA): Provided 
        management and legislative counsel to the Governor of Puerto 
        Rico and her Washington, DC office (PRFAA) on appropriations, 
        transportation and policy issues. Developed the agency's 
        Strategic Plan.

U.S. Department of Transportation, Washington, DC
Deputy Chief of Staff and Counsel, Federal Aviation Administration, (7/
98-3/00)

  <bullet> Provided counsel to the FAA Administrator on matters 
        concerning aviation programs and policy development including 
        aviation certification issues, safety and security.

  <bullet> Represented the Administrator on several controversial 
        airport expansion projects involving environmental, safety and 
        capacity concerns.

Intergovernmental Relations Officer, Office of the Secretary, (7/93-8/
94)

  <bullet> Developed and implemented outreach efforts to State and 
        local governments, trade associations, industry and labor 
        groups for Administration and Secretarial legislative and 
        policy initiatives.

  <bullet> Organized community meetings throughout the U.S. and drafted 
        summary report entitled, ``U.S. Department of Transportation, 
        The Intermodal Surface Transportation and Efficiency Act 
        (ISTEA), Regional Round Table Report and Action Plan'' which 
        evaluated implementation of ISTEA and identified gaps and 
        additional needs in U.S. infrastructure investment in 
        preparation for the reauthorization of surface transportation 
        legislation.

The White House, Washington, DC
Special Assistant to the President and Associate Director of 
Presidential Personnel, (4/97 7/98)

  <bullet> Managed the search, selection, vetting and Senate 
        confirmation of cabinet and sub-cabinet appointments.

  <bullet> Oversaw portfolio of seven cabinet agencies, eleven 
        independent agencies and 75 presidential boards and 
        commissions--over 2,500 positions in total.

  <bullet> Managed Latino outreach efforts within the Office of 
        Presidential Personnel including Members of the Congressional 
        Hispanic Caucus and various national Latino organizations on 
        the recruitment and retention of Hispanics for Federal service.

National Transportation Safety Board, Washington, DC
Special Assistant, (5/96-4/97)

  <bullet> Provided counsel to Chairman and Members of the Board. 
        Assisted on-scene at major transportation accidents with crisis 
        communications including press briefings, legal and security 
        issues and family assistance. On-scene at ValuJet accident in 
        the Florida Everglades and TWA 800 explosion in New York.

  <bullet> Reviewed and analyzed proposed safety recommendations, 
        reports and safety studies resulting from the NTSB's 
        investigation of major transportation accidents in all modes 
        including aviation, rail, transit, marine, gas and pipeline and 
        hazardous material.

The White House, Washington, DC
Deputy Associate Director, Office of Presidential Personnel, (8/94-5/
96)

  <bullet> Assisted in making recommendations to the President on 
        candidates for appointment to Senate confirmed positions, 
        Senior Executive Service and Presidential boards and 
        commissions.

  <bullet> Reviewed the statutory requirements for each position, 
        executed searches for potential candidates. Conducted outreach 
        to Members of Congress and relevant constituent groups.

  <bullet> Wrote decision memoranda for the President, press releases, 
        prepared nominations and assisted candidates through 
        confirmation.

Science Applications International Corporation (SAIC), McLean, VA
Regulatory Policy Analyst, Waste Regulations Department, (1988-1989)
Project Administrator, Environmental Policy and Implementation Group, 
(1987-1988)

  <bullet> Provided program support and analysis for the Environmental 
        Protection Agency. Assisted in writing feasibility studies for 
        Superfund sites; developing medical waste regulatory standards; 
        and formulating management standards for recycled used oil.

  <bullet> Responsible for financial and contract reporting 
        requirements for several government contracts, the largest 
        contract valued at $83 million.

Education and Certifications

Villanova University School of Law, Villanova, PA--J.D., 1992
Smith College, Northampton, MA--B.A. in American Studies, 1987

Bar Admission--State of Maryland
Lean Six Sigma--Green Belt Certified
Security Clearance--FBI Top Secret
Awards

Postal Board of Governors Award, 2009 recipient

Hispanic Business Magazine, named one of the Top 25 Executives, ``2010 
Corporate Elite''

Latina Style Magazine, Annual National LATINA Symposium, keynote 
speaker 2011 and 2014

    The Chairman. Thank you, Ms. Dominguez.
    And I will get started with the questions and just ask a 
very sort of general question at the beginning. You have been a 
Deputy Administrator now at PHMSA for the past month. Can you 
just identify those things that you see as some of the major 
management challenges of the agency?
    Ms. Dominguez. Good morning and thank you, Chairman Thune.
    Based on my short time at PHMSA so far--and I have only 
been there a few weeks--I can honestly say that one of the 
first things that I would look to do is assess the organization 
in terms of our organizational structure and make sure that we 
are actually structured in a way that can lead to long-term 
success.
    I have also had the opportunity to understand the depth and 
the incredible technical expertise of the workforce at PHMSA. 
They bring a lot to the table, and they are incredibly 
dedicated to our safety mission.
    So I think we have the opportunity to not only examine our 
internal processes, but also make improvements to the structure 
of the organization so that we are really driving innovation 
and becoming more predictive and able to use our data better in 
a way that actually leverages our inherent capabilities in 
rulemaking, regulatory oversight, and enforcement and truly 
driving the safety mission.
    The Chairman. And I mentioned earlier your resume reflects 
substantial management experience both at the Army Corps of 
Engineers, as well as at the U.S. Postal Service. But it does 
not appear to include specific expertise regarding pipeline 
safety and hazardous materials safety. So let me ask you what 
you feel you bring to the job and how will you address concerns 
about a possible lack of subject matter expertise, should you 
be confirmed.
    Ms. Dominguez. Thank you for that question, Chairman Thune.
    I believe what I bring to the table is a depth of 
experience in leading and managing people in very complex, 
large organizations. Regardless of the topic, I have worked in 
transportation, infrastructure and safety for a number of 
years, and I have worked, again, in large, complex 
organizations, including the FAA, and the FBI. When I was in 
the private sector, I worked on an organizational assessment 
for the FBI in a post-9/11 environment. I have also worked, 
again, for the United States Postal Service and most recently 
for the Army Corps of Engineers and oftentimes in periods of 
great organizational change addressing issues that need to be 
addressed to structure organizations for the long term. And I 
believe that I bring my public policy expertise to the table in 
looking at these issues and believe that, if confirmed, I will 
be able to apply my skills and experiences in leading change at 
PHMSA in a positive direction.
    The Chairman. Since you became the Deputy Administrator of 
PHMSA last month, a rupture occurred on a Plains All American 
pipeline in Illinois resulting in an estimated 100 barrels of 
oil being spilled. Shortly before you were nominated, a bigger 
rupture occurred in California on a pipeline also owned by 
Plains All American resulting in 2,400 barrels of crude oil 
eventually being spilled into the Pacific Ocean.
    What has been your level of engagement with respect to 
these pipeline ruptures, and what updates can you provide to 
the Committee regarding these accidents?
    Ms. Dominguez. The Plains pipeline--the Santa Barbara 
incident occurred before I came onboard at the agency, but I 
can assure you that we have worked diligently with the company. 
One of the things that we are looking to do is make sure that 
we better understand what their safety processes are. One of 
the areas of concern is response times moving forward if there 
is an incident.
    The agency's job is to make sure that all of the 
regulations that we have in place are not only followed but 
that we are able to have an appropriate response level. And 
just last week, the CEO of Plains was in. We will be working 
with them long-term to make sure that they are, indeed, 
developing a culture of long-term safety management practices 
for their agency and, again, as our investigation continues to 
understand the root causes of both accidents in Santa Barbara 
and in Illinois and work toward solutions that are systemic and 
comprehensive.
    The Chairman. The current pipeline safety authorization 
expires September 30 of this year. Will the administration be 
sending a draft reauthorization bill to Congress prior to that 
deadline?
    Ms. Dominguez. Chairman Thune, I agree with you that 
reauthorization is--indeed, the deadline for the Pipeline Act, 
in particular, is expiring at the end of September. We look 
forward to assessing the needs of what PHMSA can do to best 
structure ourselves for success moving forward with an eye 
toward reauthorization. It will be one of my top priorities, if 
confirmed, to actually, again, undertake that assessment and 
make sure that we work diligently with the Congress, work with 
you to understand what those potential needs may be and develop 
a solid authorization proposal.
    The Chairman. As you know, last week, the PHMSA Acting 
Administrator, Stacy Cummings, testified before Congress that 
more than a dozen requirements of the 2011 Pipeline Safety Act 
remain unfinished 4 years later. What will you do in your role 
as PHMSA Administrator to fulfill PHMSA's responsibilities 
under the 2011 law, should you be confirmed? And is there a 
plan for prioritizing the remaining incomplete regulations?
    Ms. Dominguez. Chairman Thune, I appreciate the strong 
commitment that you have made not only to making sure that the 
existing mandates under the 2011 Act are committed to and 
fulfilled. But you can be assured that I also am committed to 
making sure that the mandates and the recommendations are also 
completed.
    At this point in time, we have completed approximately 26 
of the 42 existing mandates. You have my commitment that moving 
forward, we will do everything that we possibly can to make 
sure that we not only complete the remaining mandates as 
aggressively as possible but prioritize those mandates as well. 
Two of the outstanding issues are a gas transmission rule, as 
well as a liquid hazard transmission rule. I would like to 
strive to get those completed before the end of this year, get 
out a notice of proposed rulemaking. Not only will it address a 
number of the existing mandates that are left in the 2011 
Pipeline Act, but it will also address a number of GAO and NTSB 
recommendations.
    The Chairman. Thank you.
    Senator Booker?
    Senator Booker. Thank you, Chairman Thune.
    First of all, I just want to say I have been here about 18 
months, and that was one of the best opening statements I have 
heard. And I really appreciated you talking about your parents 
for a minute, and your father's incredible commitment to public 
service is something that is worthy of reverence from all of 
the Senate. And I know when he has the kind of level of public 
service, it is not just him. It is an extraordinary wife who 
supports him and empowers him to serve his country. So I am 
grateful for that and thank you for mentioning that in your 
opening statement.
    Recent pipeline and rail incidents demonstrate the ongoing 
risks posed by transporting gas and other hazardous materials 
and the urgent need for continued oversight by PHMSA. For 
example, a gas rupture in September 2010 in San Bruno, 
California killed eight people and damaged over 100 homes. But 
that is just one incident of, unfortunately, way too many that 
we see when it comes to the transportation of hazardous 
materials.
    Additionally, recent increases in accidents involving 
trains carrying crude oil highlight the need to address safety 
risks posed by emerging use of rail infrastructure. Rail safety 
is something that is very much on my mind as a United States 
Senator especially because of the level with which it passes 
through the state of New Jersey and other vital arteries around 
this country.
    And so I think that now that you have been there for a 
little bit, I just want to ask, do you think that PHMSA has the 
proper resources to vigorously oversee the safe transportation 
of hazardous materials by pipeline, rail, and other modes?
    Ms. Dominguez. Thank you for the question, Ranking Member 
Booker.
    I have to say that we are very grateful for the resources 
that Congress has provided over the course of the last year. 
Last December, Congress was generous and provided an additional 
122 new positions to the agency. And I think managing that 
investment, moving forward, is one of my top priorities.
    Our mission is to really protect people and the environment 
from the risks of hazardous material in transportation, and we 
take that very seriously. And with the increase in the energy 
production in this country, we need to make sure that not only 
are we using the dollars that Congress has invested in us 
wisely but also looking to see how we can efficiently structure 
the organization to address not only current needs but future 
needs so that as we look forward, we need to make sure that we 
are structured for long-term success to address not only the 
energy markets but everything that we have got on our plate.
    Senator Booker. So as I learned in my role as Mayor and 
dealing with crises in my city, one of the biggest challenges 
always was coordinating with various levels of government. And 
so you, obviously, have to coordinate with the Department of 
Transportation's modal administrations on the oversight of 
hazardous materials. What would you do to foster greater 
coordination and seamless action in terms of prevention and 
response?
    Ms. Dominguez. Thank you for the question, Senator.
    I think that it is inherent in everything that you do as a 
leader to make sure that you are not only coordinating as best 
you can internally amongst the organization--DOT has a great 
leadership, we will continue to do that--but we also need to 
coordinate with our state as well as local partners, emergency 
responders, and we have great opportunity to do that. We also 
need to coordinate with all of our stakeholders and make sure 
that there is communication and transparency across the board. 
We certainly have opportunity to do that, but I will continue 
that and make sure that not only are resources provided to our 
emergency responders and our level of state coordination is 
thorough and robust, but that we are also coordinating 
internally with our Federal partners and with Congress to 
ensure communication and transparency.
    Senator Booker. Ms. Dominguez, real quickly in the last 
minute that I have. DOT recently issued new tank car standards, 
but some of the recent crude-by-rail accidents have involved 
spills from upgraded cars. Do you believe other actions are 
needed to prevent or mitigate these accidents?
    Ms. Dominguez. I agree that we need to make sure that the 
tank cars that carry crude oil are, indeed, as robust--and 
other hazardous liquids, are as robust as possible. And the 
Administration has put forward--the Department put forward a 
high hazard flammable train rule just this past May. Those 
requirements include a very robust--it is a very comprehensive 
set of actions--include a very robust approach to rail car 
safety. So we would look to continue working along that path to 
make sure that the schedule that is outlined for operational 
controls, as well as tank car integrity, are pursued.
    Senator Booker. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Booker.
    Senator Ayotte?

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you, Chairman.
    I want to thank you, Ms. Dominguez, for your service, and 
this is obviously a very important position that you have been 
nominated for.
    As I understand it, FERC is charged with issuing permits 
for the construction of natural gas pipelines. Is that right?
    Ms. Dominguez. That is correct.
    Senator Ayotte. However, according to FERC's own website, 
it says the commission has no jurisdiction over pipeline safety 
or security but actively works with other agencies with safety 
and security responsibilities. I assume that includes PHMSA, 
given the important responsibilities you have for overseeing 
the safety of pipelines.
    Ms. Dominguez. Yes, Senator.
    Senator Ayotte. If FERC, by its own admission has no 
jurisdiction over pipeline safety, how does PHMSA interact with 
FERC to make sure that when there is a proposed pipeline, that 
it is actually being sited in a way that protects people's 
safety?
    Ms. Dominguez. Thank you for the question, Senator Ayotte. 
And I appreciated the opportunity to meet with you and 
understand the concerns of the citizens of New Hampshire. You 
shared your concerns about a siting of a pipeline that is under 
consideration.
    And in answer to your question, PHMSA works aggressively 
with FERC. While FERC actually is responsible directly for the 
permitting, that permitting process includes a very robust 
public process. And PHMSA partners with FERC in public meetings 
if there are questions about the safety and integrity moving 
forward of a potential pipeline. We talk about our roles and 
responsibilities and we look to partner with FERC as often as 
we can. And we would be happy to follow up with you as there is 
additional opportunity in public forums to communicate that.
    Senator Ayotte. Excellent, because when you and I met, I 
told you about a pipeline project being proposed by Kinder 
Morgan that would potentially travel through New Hampshire. It 
is called the Northeast Energy Direct Pipeline. Right now, the 
project is in its pre-filing stage. I have heard a lot of 
concerns from my constituents about pipeline safety in their 
communities. In fact, recently in Merrimack, New Hampshire, the 
Merrimack School Board voted unanimously to oppose any route 
for the Kinder Morgan pipeline that comes within a thousand 
feet of a district school building.
    So as we talk about PHMSA's role in overseeing safety, 
would you agree with me that pipeline routes also can impact 
safety depending on, for example, whether they are near a 
school, or a wetlands, and that it's an important 
responsibility not just what FERC does but making sure FERC 
takes safety into account when they are looking at a proposed 
route for a pipeline?
    Ms. Dominguez. Yes, Senator. I appreciate your commitment 
to safety and making sure that things are sited, as well as 
constructed, properly.
    Again, our mission is to make sure that we protect people 
and the environment from any risk of hazardous materials 
transportation. So in working with FERC through the process of 
actually siting a pipeline, we will bring our safety expertise 
to bear as best we can in partnership with the agency.
    Senator Ayotte. So one thing that as I look at the 
process--will your role as PHMSA Administrator also include 
being engaged in the pre-filing process to ensure that the 
safest route possible is determined for the location of the 
pipeline?
    Ms. Dominguez. I appreciate what you are saying. I would 
have to actually go back and understand the level of detail to 
which we work with FERC in terms of the actual pre-application. 
I do know that during the course of the pre-application 
process, to the degree that there is public meetings and FERC 
is doing due diligence, we do participate and share the safety 
components of the actual construction of pipelines. So I would 
be happy to get back with you and make sure that we provide you 
with the accurate data.
    Senator Ayotte. Well, this is really important to my 
constituents, and I have been listening to what they had to say 
to me about this and their concerns, and I want to make sure 
they are addressed.
    Would you commit to coming to New Hampshire, if confirmed, 
to hear from citizens and stakeholders directly regarding the 
safety concerns of this pipeline in coordination with FERC? And 
would you commit to working with FERC and others to ensure the 
safety of this pipeline?
    Ms. Dominguez. Yes, Senator. I would be happy to do that. I 
would be happy to work with you and your staff to visit New 
Hampshire and talk to your citizens.
    Senator Ayotte. Thank you. I appreciate that. Thank you 
very much.
    Ms. Dominguez. Thank you.
    The Chairman. Thank you, Senator Ayotte.
    Senator Fischer?

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman.
    And thank you, Ms. Dominguez. It is so nice to see you. I 
really appreciated you taking the time to come over when we 
were having votes on the Senate floor so we could have a brief 
meeting. I appreciate your background. I appreciate your 
service and that of your family. Thank you very much.
    With respect to natural gas storage facilities, in 2011 
PHMSA requested feedback from industry stakeholders regarding 
how PHMSA should properly regulate these types of facilities. 
And at this time, you really have taken little action on the 
stakeholder recommendations. So if confirmed by the Senate, 
will you commit to moving forward with the industry 
recommendations so that we can ensure greater safety for 
communities along the pipeline storage routes? And what 
specifically do you see in those recommendations that you would 
be interested in possibly moving forward on?
    Ms. Dominguez. Thank you, Senator Fischer. It was a 
pleasure to meet with you the other day. I greatly appreciate 
you taking the time and sharing your concerns.
    With regard to priorities, one of the things that we are 
working on, as I said, and what will be one of my priorities 
moving forward, will be to makes sure that we publish, 
hopefully by the end of this year, a notice of proposed 
rulemaking on gas transmission pipelines. And to the degree 
that that actually addresses some of your concerns, I would 
like to make sure that I understand the full complexity of the 
issues that you are raising, but I do believe that a good 
portion of our proposed rulemaking will address some of those 
concerns.
    Senator Fischer. Have you had an opportunity to review 
specific stakeholder recommendations yet from the industry, the 
industry stakeholders, and do you have a personal opinion on 
any of those?
    Ms. Dominguez. Senator, I have not had a chance to review 
the comments from stakeholders, but if confirmed, I will 
absolutely work aggressively to do that and make sure that we 
follow up appropriately.
    Senator Fischer. Thank you.
    And from what I understand, PHMSA has not completed its 
hiring of pipeline personnel that was funded in 2015 
appropriations. So if confirmed, do you plan to complete that 
hiring of personnel? And what areas do you specifically believe 
that more personnel is needed within the agency?
    Ms. Dominguez. Thank you for the question, Senator Fischer.
    Indeed, one of my top priorities will be to complete the 
mandates under the 2011 Act, and that includes hiring of 
personnel. The Congress has been incredibly generous in 
providing additional resources for us to do that. We were able 
to bring on board--we are working to bring on board 109 
positions in our pipeline community alone, and 80 percent of 
those will be in the inspection area. And at this point in 
time, we have hired about 46 percent. We are striving right now 
to make sure that we can complete that hiring as aggressively 
as possible. We are looking to leverage every mechanism that we 
have got available to us, whether it is social media, and 
really aggressively recruiting inspectors.
    As you can imagine, given the energy boom, we are going 
head to head with private industry for the exact same type of 
petroleum engineer, and what we are looking to do is diversify 
what we are looking for. So we are also looking at 
transportation experts, as well as auditors, other people that 
can help us in this function area. So we are doing all we can 
to make sure that we hire as aggressively as possible.
    One interesting note is that I actually heard the other day 
that some of the corporations are actually recruiting 
sophomores in their undergraduate years to come on board. So 
our competition is steep but we are aggressively pursuing it, 
and we are going to do all we can to make sure we complete it.
    Senator Fischer. I know Congress has increased the budget 
for the inspector staff quite a bit since 2009. I am concerned 
because NTSB says that accidents were a result of regulatory 
enforcement failures. And so I would ask you is the problem 
with the execution of the regulations, not so much what the 
rules are or the resources that the agency has available to 
them. Where do you see the root of the problem on this?
    Ms. Dominguez. So the agency's fundamental goal is to make 
sure that we have a zero death and injury accident rate. And we 
have seen the numbers over the course of time decrease, but 
there is still a lot that we need to do.
    So one of the first things that I will look at, one of my 
priorities, is actually to undertake an enforcement assessment 
and make sure that we are doing all we can to not only 
understand the levers that we have available, whether they are 
civil penalties, corrective action orders, et cetera, but also 
where can we find additional opportunities to make sure that we 
have the most robust enforcement program in place. So I will be 
looking to do that and look forward to working with you on 
that.
    Senator Fischer. You have good organizational skills and I 
look forward to you putting them to positive use within this 
agency. Thank you.
    Ms. Dominguez. Thank you very much, Senator.
    The Chairman. Thank you, Senator Fischer.
    Senator Sullivan?

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman.
    And, Ms. Dominguez, I want to echo Senator Booker's 
comments about your opening statement, the reference to your 
parents. I think that was very well appreciated, and I think it 
gives a deeper understanding for the Committee about your own 
service. So I appreciate you wanting to do this job, and your 
mom and dad and family backing you. I think that is very 
important.
    You know, as mentioned earlier on PHMSA--right--a lot of 
people do not know. Actually in Alaska it is a fairly well 
known agency simply because of the importance of the Trans-
Alaska Pipeline, what we call TAPS in Alaska. So have you ever 
seen TAPS or been to Alaska. It is really quite an engineering 
marvel that has transported, I believe, now close to 16 billion 
barrels of oil. Have you seen the pipeline?
    Ms. Dominguez. No, sir. I have not had the opportunity.
    Senator Sullivan. Well, if you are confirmed, I would love 
to get you up there soon because I think you can learn a lot by 
seeing one of the most famous pipelines in America.
    Ms. Dominguez. Thank you. I would be happy to join you.
    Senator Sullivan. I wanted to relay a quick story because 
it is an important one to kind of clarify some confusion in 
Alaska. In 2011, the Trans-Alaska Pipeline System at Pump 
Station 1 had a leaked. It was a self-contained leak within 
Pump Station 1. But we shut down the pipeline. It was about 30 
below 0 when this happened, so there were some concerns about 
actually restarting it. There were some delays, and the delays 
were principally caused by Federal agencies claiming 
jurisdiction. In particular, the EPA came up to Alaska in force 
and claimed that they had jurisdiction over TAPS, which 
confused a lot of people. I had been the Attorney General and 
recently was the Commissioner of Natural Resources at the time, 
and I told the EPA we did not recognize their authority because 
they did not have jurisdiction over the Trans-Alaska Pipeline 
System.
    I later was in Washington and a couple PHMSA officials came 
up to me. They heard the story, and they thanked me for, quote, 
standing up to defend their turf.
    So can I just get from you directly because it is a really 
important issue in Alaska--there was some confusion. I think it 
was another example of classic EPA overreach claiming powers 
that they do not have. What is the Federal agency that has 
primary jurisdiction over the Trans-Alaska Pipeline System?
    Ms. Dominguez. Senator Sullivan, thank you for sharing your 
personal experience with the agency.
    Indeed, PHMSA has jurisdiction over that area, but we 
always look to collaborate with our partners.
    Senator Sullivan. Of course. We all do. But it is important 
to actually clarify who is in charge.
    Ms. Dominguez. Yes.
    Senator Sullivan. The EPA is not in charge of TAPS. You 
guys are.
    Ms. Dominguez. Yes, sir.
    Senator Sullivan. So I am glad you clarified that for my 
constituents.
    You mentioned that the energy boom, the energy renaissance 
is something that we should seize as a country. It is a great 
opportunity. Do you have numbers as a percentage of volume of 
crude oil being moved what is the safest way to move crude oil? 
I am assuming it is via pipeline versus rail, but do you know 
the answer to that question? And if you do not, could you get 
us that?
    Ms. Dominguez. I would be happy to get you--to look into 
it. But I will tell you that our responsibility is to look at 
all modes of transportation for any material that is moving----
    Senator Sullivan. No, I know. But I mean, we debate rail. 
We debate safety. The President vetoed the Keystone XL pipeline 
despite 65 Senators being for that project.
    By the way, do you think that was a wise move of the 
President to veto that project?
    [Pause.]
    Senator Sullivan. You do not have to answer that question.
    Ms. Dominguez. Thank you, sir.
    Senator Sullivan. I thought I could ask it. But I will not 
hold that against you, that you did not answer.
    But in all seriousness, the issue of--as a volume of crude 
oil--as a percentage of volume, what is the safest way to 
actually move it. Pipeline versus rail cars? I am almost sure 
it is pipelines, but if you guys can answer that question, that 
would be very helpful.
    Ms. Dominguez. Thank you, Senator.
    The bottom line is that regardless of what mode of 
transportation is used, our job is to----
    Senator Sullivan. No, I know. But I mean, to help us with 
our deliberations here, I think it is an important question.
    Let me ask a final question. You know, delays can undermine 
safety, and unfortunately, whether it is PHMSA pipeline audits 
that can take up to 18 months, whether it is the notice of 
probable violation letters that you guys send to operators, 
sometimes these are delayed by 700 days after an inspection. 
These are delays that can really undermine safety because we 
want to know if there is a problem. We want to know what the 
problem is very quickly. Again, I think PHMSA has an incredibly 
important job, certainly in my state it does, but throughout 
the country. But there are a lot of episodes of delays, audits, 
these NOPV letters. And when you delay these, we do not have 
the knowledge of what is happening well or what is happening 
poorly, and then it can cause further challenges in terms of 
safety.
    Can you commit to this committee, if you are confirmed, to 
use those 109 new personnel that we have authorized for you to 
hire to make sure they are not only doing their job, but they 
are doing it efficiently, meaning bringing down some of these 
long delays and timelines that have happened in terms of 
inspections and letters out to operators to let them know, hey, 
there is a challenge? It should not take 700 days to let an 
operator know that there is some kind of violation.
    Ms. Dominguez. Senator, thank you very much for sharing 
your concerns.
    Indeed, as I stated before, one of my priorities will 
actually be to assess our enforcement process and make sure 
that we are working as efficiently as possible and using all of 
the potential options that we have moving forward. And I will 
commit to working with you to make sure that we do things 
expeditiously.
    Senator Sullivan. Great. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Sullivan.
    And I would agree that between rail and pipeline, pipeline 
has got to be safer, but, Ms. Dominguez, if you could furnish 
the answer to that, that would be most helpful. We debate a lot 
around here modes of transportation, and we just moved a rail 
title, Senator Booker's, a lot of good work involved in getting 
the rail provisions in the transportation bill that we are 
going to consider on the floor, along with a safety title, 
which is really critical. But I think as we evaluate as a 
policy matter too how best to move a lot of these commodities 
to the marketplace, I would certainly be interested to know, if 
that information and data is available, what is the safest way 
in which to transport many of these commodities.
    Next up is Senator Blunt. Hold on. My apologies. I have 
Senator Peters and then Senator Blunt. My apologies to the 
Senator from Missouri and the Senator from Michigan. Senator 
Peters?

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. It is no problem. Thank you, Mr. Chairman. 
And thank you, Senator Blunt, for noticing that. I appreciate 
that.
    Thank you, Ms. Dominguez, for being here today, and I 
certainly appreciate the opportunity that we had yesterday to 
spend some time talking about a variety of issues and 
appreciate your willingness to serve. This is a big job ahead 
of you but one that is absolutely critical.
    And I want to pick up on the discussion that Senator 
Sullivan mentioned and Chairman Thune mentioned as well about 
pipeline safety versus the railroads. Certainly railroads are a 
high-risk operation, but let us remember that pipelines can 
also be an operation that is fraught with potential problems.
    In fact, I think we know it better than most in the state 
of Michigan because this coming Saturday on July 25, we will 
recognize a very unfortunate 5-year anniversary of the worst 
oil spill disaster on land in the United States. It was a spill 
that was a 6-foot break in the pipeline near Marshall, Michigan 
that resulted in a spill of about 1 million gallons of heavy 
crude oil, heavy crude oil coming from Canada, which is heavy 
oil, which means it sinks in water, which is even more 
problematic. It spread for 35 miles along the Kalamazoo River 
and tributaries. And I think the last count that I have seen, 
it has racked up costs in excess of $1 billion to clean up this 
oil pipeline disaster in Michigan.
    And what was probably the most troubling aspect of the 
disaster is that it took 17 hours before they actually shut off 
the oil from this pipeline. The company itself did not know the 
pipeline had ruptured. It was a utility worker for a different 
company that happened to be driving by, is my understanding, 
and saw the oil and called the company and said, I think you 
got a problem here. And they did to the tune of about a million 
gallons of oil spilling through the water in Michigan.
    The independent investigations after the spill concluded 
that weak Federal regulations were a part of that spill, had a 
role in that. And in response, this committee played a major 
role in the 2011 pipeline safety bill that included a number of 
very important safety provisions in that legislation.
    Unfortunately, as you have heard today, many of these rules 
and regulations mandated by Congress and recommended by safety 
experts have yet to be finalized by PHMSA and the Department of 
Transportation. Simply unacceptable. We need to step that up 
immediately. I know that some progress has been made, and I am 
certainly hopeful that under your leadership you will be fully 
committed to make sure that we do what has to be done in order 
to protect our land and our environment.
    But even with those kinds of moves, I am still particularly 
concerned about future spills in the Great Lakes, and it is 
because of what we saw firsthand in Michigan and the Kalamazoo 
River. We are very concerned about potential pipeline breaks in 
the Great Lakes. And we have a pipeline now that is a very old 
pipeline that was sited before NEPA, before environmental 
regulations were in place. It is 60 years old that cross the 
Straits of Mackinac. And experts have all said that it would be 
probably the worst possible place for a spill in the event of 
an accident similar to what we had in Kalamazoo just 5 years 
ago. In fact, it would create a plume that would likely stretch 
for 85 miles into Lake Huron and Lake Michigan in my state.
    And we have to remember that the Great Lakes contain 84 
percent of North America's surface fresh water and about 21 
percent of the world's supply of fresh water. And the Great 
Lakes provide drinking water for 40 million people. It is 
pretty clear that a pipeline break in the Great Lakes would be 
absolutely catastrophic. And this pipeline was sited prior to, 
as I mentioned, a lot of environmental regulations.
    We have a number of experts who have said this 1950s 
technology is outdated. The coatings have been proved deficient 
in a variety of other pipelines around the country. We have 
zebra mussels now that create some acid that also can work 
against pipes. So bottom line, we have a lot of concerns.
    I am running low on time. I am not going to have many 
questions for you. But this is going to be a number one 
priority for me and I hope my colleague as well, given the 
impact that it would have on the entire country, not just the 
Great Lakes region.
    So I guess my initial question to you is given the fact 
that this occurred before NEPA, what do you see the role? 
Particularly when this pipeline has changed some of its 
operations over many of those years, how can we get in there 
and make sure that we are perhaps doing new cost-benefit 
analysis as to whether or not this pipeline should even exist 
anymore?
    Ms. Dominguez. Thank you, Senator Peters. I really 
appreciate you taking the time to meet with me yesterday. I 
also have to say that I was incredibly struck by the fact that 
you just shared yesterday but as well as today that the Great 
Lakes provides fresh drinking water for over 40 million people. 
And I commit to work with you not only to make sure that our 
pipelines are as safe as they possibly can be but also look to 
make sure that we are protecting people and the environment 
moving forward and truly carrying out our mission. So I look 
forward to, again, pursuing those efforts with you directly and 
for the people of Michigan.
    I do know that we are working on an exercise with Enbridge 
Pipeline for emergency responders in September of this year, 
look to work with the state and local governments as well to 
make sure that people--if there is an accident, that we are 
actually responding and mitigating that as much as we possibly 
can. So, again, I look forward to working with you moving 
forward.
    Senator Peters. And if I may just briefly, Mr. Chairman. 
And I appreciate the mitigation, but I will just let you know 
we had a panel sitting where you were just a month or two ago 
talking about the disaster in the Gulf. And what came out in 
the panel was a lot of the ways that we deal with mitigating 
oil disasters in salt water simply do not work in fresh water. 
The bacteria that exists in salt water does not exist in fresh 
water that helps eat some of the oil that is spilled. And some 
of the techniques that we use also do not work apparently in 
fresh water, some of the dispersants. So there is a lack of 
knowledge of how we deal with fresh water oil disasters, which 
was particularly troubling.
    But then the other thing I want to remind you of, if you 
have an oil disaster under the Straits of Mackinac in the 
wintertime, it is all covered with ice. The last two seasons, 
the Great Lakes unusually have been completely covered by ice. 
So you can imagine a pipeline break underneath water with 
currents in fresh water with thick ice. How do you clean that 
up? It may not even be possible to clean up until it does 
absolutely catastrophic damage to the environment and to the 
drinking water supplies for people.
    So this is an issue that I am going to be in your office 
regularly. My staff will be there. We have got a PHMSA 
reauthorization coming up. This, I hope, will be at the very 
top of your agenda as a very fragile ecosystem and one that has 
incredible potential to do damage not only for drinking water 
but recreational uses as well as the commercial uses of the 
Great Lakes. So I look forward to working with you.
    Ms. Dominguez. Thank you, Senator Peters. And I am 
committed to working with you to make sure that we address your 
concerns. Thank you.
    The Chairman. Thank you, Senator Peters.
    Thank you. Senator Blunt.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Thank you. I thank the Chairman.
    A number of good questions have been asked and answered. A 
number of others for the record, I am sure, will be. But I had 
one question that actually, particularly your comment on modes 
of transportation and your jurisdiction on those modes of 
transportation. I guess my question relates to that a little 
bit.
    There is clearly a lot of movement toward liquefied natural 
gas for transportation fuel. PHMSA has the siting authority for 
where the small-scale LNG facilities can be sited. I have heard 
some concerns that in siting those facilities, that there is 
not much consideration to how that fuel is going to be 
transported, not much consideration, which may go to the 
question of what is the best way to transport fuel which may 
then become one of the things you want to look at as you look 
at how to site these facilities.
    But in those facilities, they are built as if I think they 
were going to be transported in a pipeline but often not. 
Barge, truck, train, other things. Maybe barge and truck would 
be the two examples that I know of that come to mind.
    So are you aware of that concern about siting these LNG 
facilities and any comments you might have on whether how that 
liquefied natural gas is going to be transported should be part 
of the siting consideration.
    Ms. Dominguez. Thank you, Senator Blunt. And I appreciate 
the question and your concern with regard to liquid natural 
gas. I do recognize that the United States is becoming not only 
the world's largest--we are changing basically from an importer 
to an exporter, and in doing so, we need to make sure that the 
siting facilities for both small as well as large LNG 
facilities are as robust as they can be and making sure that 
they are complying with PHMSA regulations.
    I do know initially that the agency is working on making 
sure that we update our rulemaking and our regulations in this 
area. I would be happy to work with you moving forward to make 
sure that we are addressing the small facilities, as well as 
the larger facilities, and that our packaging, meaning like 
literally the requirements for siting, are addressed.
    Senator Blunt. Yes. I think one of the things, Ms. 
Dominguez, you are seeing here today is some substantial 
interest by the Committee about how the fuel is transmitted and 
whether that should be a consideration. At least in my view of 
things like siting a small-scale facility, if there are two 
alternatives and you actually do come up with a recommended and 
safer way to transport and one of the alternative sites is near 
that and one is not, it would seem to me that would be a 
reasonable consideration.
    I know in the Transportation appropriations bill for next 
year--I believe in the bill the Committee passed at least, 
since we have passed none of the appropriations bills on the 
floor, but committee-passed bill would actually direct you to 
do a study on this. But I think it is a significant issue. I 
hope, as you assume the likely leadership you are going to 
assume for the agency, that is something you will be thinking 
about and paying attention to as the siting discussion and your 
siting obligation goes forward.
    Ms. Dominguez. I will, indeed, sir, and I look forward to 
following up with you to continue this discussion but also to 
make sure that we are looking into it appropriately. I do know, 
again, that we are looking to make sure that our regulations 
are addressing all of the emerging concerns.
    One of the things that I can tell you that I am very 
committed to is not only making sure that the agency is 
addressing existing technologies and energy markets but being 
more predictive and understanding where the trends are likely 
to be in the future. And we need to do that through more robust 
data analysis and R&D. So I think this issue gets at the heart 
of that, and I look forward to working with you on it.
    Senator Blunt. Thank you. It was great to have you here and 
your parents with you today.
    Ms. Dominguez. Thank you very much, sir.
    The Chairman. Thank you, Senator Blunt.
    Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    Ms. Dominguez, congratulations on your nomination to the 
Pipeline and Hazardous Materials Safety Administration spot as 
Administrator.
    You mentioned something that is very much on my mind and 
many people's here and that is the notion of energy security 
and how we switched from being an importer to creating a 
domestic supply and the maximum amount of increase that we have 
seen because of that on our transportation networks and our 
systems.
    Do you believe that crude oil volatility is an issue?
    Ms. Dominguez. I believe certainly that we need to make 
sure that we are doing all we can to understand the properties 
of crude oil, especially crude oil coming out of the Bakken. 
There are indeed volatility issues that are a significant 
concern. I also believe that we are doing everything that we 
possibly can to better study and understand what those 
characteristics of that oil are, and moving forward, you have 
my commitment that we will continue to not only work with you 
but work to make sure that we are partnering with the 
appropriate Federal agencies, in this case, the Department of 
Energy, where we have an ongoing study with the Department of 
Energy and Sandia Labs to examine the characteristics of the 
crude oil coming out of the Bakken area and really, truly 
understand what that volatility threshold is.
    Senator Cantwell. So you support funding for that.
    Ms. Dominguez. I believe that the Congress has provided us 
funding to do that. We have undertaken the study already with 
DOE, and we will look to make sure that we are using those 
dollars wisely, and if we need to invest more, absolutely.
    Senator Cantwell. OK, good. Well, that last part was 
critical for me because I think that is where we are. You know 
that DOE came up with a crude oil characteristics research 
study, which was a compilation of science as it exists today on 
the subject, which raised questions about the volatility. And 
so they wanted to move forward on an actual large-scale 
combustion testing and comprehensive program. The issue is not 
that they do not want to do it. The issue is at the moment they 
do not have the funding. So glad that you support that and that 
is what we need to do to make sure that that volatility testing 
gets done. And so I just want to make sure that as the 
Administrator of the Pipeline and Hazardous Materials Safety 
Administration that you support making sure that that gets 
done.
    Ms. Dominguez. Thank you, Senator. I believe that it is a 
phased study, as I understand it. There are about six tasks 
that are underway. We are pursuing one through four right now, 
really looking at initially the sampling and characteristics of 
the oil, and the remaining tasks that you are referring to 
really do get to the larger-scale testing to understand the 
actual characteristics and how all the factors would come 
together and undertaking that study. We look to also partner 
with industry to make sure that we are----
    Senator Cantwell. But you want to make sure that happens.
    Ms. Dominguez. Yes, ma'am.
    Senator Cantwell. Five and six or whatever it is called.
    Ms. Dominguez. Yes. I think that we need to make sure that 
we are looking to make sure that we are doing everything we 
possibly can to address the volatility issue.
    Senator Cantwell. Well, I could not agree more. I think 
that we are leaving our fire fighters at critical junctions at 
these catastrophes, as we have seen explosions, without the 
resources and the tools to even address the fires because we 
have so much train traffic now, three trains a day that is 
supposed to go as high as 15 trains a day and we have mayors 
from places like Seattle who say they will not send fire 
fighters into some of our train tunnels in Seattle if in fact 
there is an explosion. They will not even send people in there. 
That is how hazardous it is and how challenging. So I think 
getting these answers is critical. So thank you for that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell.
    Senator Daines?

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman.
    Welcome. Good to see you again, Ms. Dominguez. And 
congratulations on your nomination. It was good to have you 
stop by the office and get to know one another and chat a bit 
about the future of PHMSA.
    As we discussed in our meeting, PHMSA plays a very 
important role in Montana. It is a big state and it is vital to 
ensure our safe and environmentally sound transport of our 
natural resources, whether it is pipeline or also by rail.
    The agency's jurisdiction covers approximately 2.6 million 
miles of pipeline and railroads when transporting hazardous 
materials. Approximately 19,000 miles of pipeline and another 
nearly 3,200 miles of rail cross Montana. This infrastructure 
is truly an economic bloodline for Montana. We produce nearly 
30 million barrels of crude oil, 63 billion cubic feet of 
natural gas, and 42 million short tons of coal annually and 
export about 60 percent of that energy production.
    In terms of the connection to jobs, the oil, gas, and 
mining industries directly--directly--employ about 14,000 
Montanans, and they account for about 8 percent of our state's 
gross domestic product. And it is about a half a billion 
dollars in state and local tax revenue.
    So as we look at this very important job, it is imperative 
to Montana that we continue to move these commodities in a safe 
and efficient manner.
    Very recently, Montana has experienced the consequences of 
rail car derailments and pipeline failures. In fact, just last 
Thursday, a train derailed near Culbertson. It released 35,000 
gallons of crude oil. In January, a pipeline ruptured near 
Glendive and released 30,000 gallons of crude into the 
Yellowstone River. In 2011, a pipeline ruptured on that same 
river, the Great Yellowstone, and it released 63,000 gallons of 
crude oil there by Laurel, Montana. So I know Montanans want to 
be assured that our pipelines are going to be safe and our rail 
lines are going to be safe.
    So as Administrator, how are you going to be able to regain 
the public's confidence--because frankly, when we have had some 
of these incidents, it shakes the confidence of the folks back 
home--that our pipelines are safe, that it is a good way to get 
our natural resources to market?
    Ms. Dominguez. Thank you, Senator Daines. And I do 
appreciate the opportunity to meet with you and very much 
appreciate your concerns not only for the citizens of Montana, 
but you also articulated your concerns about the natural 
resources that were impacted not only by the oil incident in 
January of this year on the Yellowstone River but also the most 
recent rail car derailment just last week.
    The bottom line is that I think we need to make sure that 
everything that we do with regard to the integrity of pipelines 
is as robust as it possibly can be. As you know, we have worked 
very diligently with the state of Montana to make sure that we 
are identifying the highest-risk areas, making sure that we are 
able to address any concerns with regard to river crossings and 
make sure that directionally drilled pipes are in place to 
address any potential concerns with regard to flooding. Moving 
forward, we have developed a report to Congress. We will look 
to follow that up and address any concerns with regard to any 
potential----
    Senator Daines. Yes. I know the concerns on the aging 
infrastructure.
    Ms. Dominguez. Yes.
    Senator Daines. Some of these pipelines are 50 years old or 
greater. As you pointed out, they were dredged into the 
Yellowstone versus directionally drilled. And we want to 
continue to work to identify these higher-risk pipelines and 
make sure that we have processes in place to prevent future 
spills.
    And speaking of the state, following these incidents, it 
has been important for Montanans to locate information about 
the pipelines in their communities. In fact, the Montana 
legislature recently passed a bill to collect information on 
pipelines that intersect rivers, given we have had these two 
breaches on the Yellowstone in the last few years, and make 
sure it is publicly available online so that a Montanan can go 
online with transparency and see where these river crossings 
occur with pipelines.
    I will tell you I have heard from back home there has been 
some frustration with the lack of response from PHMSA as the 
state is asking for some greater transparency. What could you 
do to help us ensure that Montanans have access to the 
information? Again, these are the folks that live the closest 
to the source of where these spills could occur.
    Ms. Dominguez. Senator Daines, I think you raise a really 
good issue. And one of the things that I would like to work 
with you on moving forward is making sure that we have as much 
information as is possible about where pipelines actually are 
in any given community so that it is made available and is as 
transparent to the public as possible.
    There are some concerns about--we have an opportunity. We 
have the National Pipeline Mapping System. We are working and 
hope to do an information collection here, a notice in the next 
couple of months that would further enhance our data with 
regard to the exact siting of pipelines. We also have to 
balance that with making sure that we are sharing information 
appropriately to make sure that we are not doing anything that 
would, indeed, threaten our national security interests as 
well.
    That said, we also have very robust programs. The 811 
program, ``Call Before You Dig,'' is literally geared toward 
citizens across the country, as well as contractors and 
excavators, making sure that people have information. We 
partner with Common Ground Alliance. I would like to continue 
that robust partnership and make sure that there is awareness. 
Excavation itself is one of the worst threats to the integrity 
of a pipeline system, and working forward to not only provide 
the information on where pipelines are but also enhance our 
notification and information and share that more widely with 
the public through the 811 process.
    Senator Daines. Mr. Chairman, can I ask one more question? 
I am out of time. Thank you.
    I look forward to working to find that right balance 
between protecting national security and transparency, 
particularly for river crossings with pipelines, and working 
with our State officials back home.
    Ms. Dominguez. Thank you, Senator Daines.
    You know, the information that we share that is more 
critical is done through our protocols that we establish with 
the Department of Homeland Security to make sure that the 
people that need a deeper level of interest, including 
emergency responders, have that information. And it is done in 
a very secure manner, but they have it so that they can respond 
appropriately and also know what is in the area.
    Senator Daines. My last question is given the recent 
accidents in Montana, I appreciate the transparency of PHMSA's 
response. It has been good. However, PHMSA's rulemaking has 
been quite opaque. So we are seeing transparency when there is 
an accident, but it has been a bit opaque in the upstream 
process which probably could be key to prevention. Certainly an 
ounce of prevention could be worth a pound of cure.
    As Administrator, how would you see increasing transparency 
of that rulemaking process and include the coordination with 
industry as well as State stakeholders?
    Ms. Dominguez. Senator Daines, I agree with you that 
communication and transparency are fundamental to the process 
moving forward, whether it is rulemaking or communicating any 
of our information that we have available to share.
    My experience, having led a number of organizations, is 
really making sure that as we move forward in any rulemaking 
process, there is a healthy, robust opportunity for not only 
stakeholders to provide comments in the rulemaking process but 
that we are responsive, whether it is through reports to 
Congress or other means, to sharing information along the way, 
taking that transparent opportunity of comments through the 
rulemaking process, working through them, addressing them, 
working with our stakeholders and understanding where they are 
coming from, and then truly writing the most robust rules that 
we possibly can addressing concerns that are there, recognizing 
that we have to do that in a cost-benefit manner.
    Senator Daines. Thank you.
    Ms. Dominguez. Thank you.
    The Chairman. Thank you, Senator Daines.
    I think that wraps things up. So, Ms. Dominguez, again 
thank you for being here and responding to our questions and 
for your willingness to put your name forward as a nominee for 
what is a critically important safety position in the 
administration. As you could hear today, lots of questions, a 
lot of interest. And we will look forward, if confirmed, to 
working with you to address many of those.
    The hearing record will remain open for 2 weeks. During 
this time, Senators are asked to submit any questions for the 
record. Upon receipt, the witness is requested to submit her 
answers to the Committee as soon as possible.
    So with that, again, I want to thank you for appearing here 
today and thank you so much for having your family join us and 
for the long history that you and your family have of serving 
our great country.
    This hearing is adjourned.
    [Whereupon, at 11:17 a.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Questions Submitted by Hon. John Thune to 
                        Marie Therese Dominguez
    Question 1. Ms. Dominguez, pipeline and hazmat safety are PHMSA's 
primary responsibilities. Should you be confirmed, how will the agency 
consider other factors, including the environment, when establishing 
rules and prioritizing agency resources under your leadership? While 
other factors may impact your decision making, would you agree that 
safety always needs to be the paramount consideration for PHMSA?
    Answer. Safety is PHMSA's top priority. Our mission is to protect 
people and the environment from the risks of hazardous materials 
transportation. We achieve our mission by ensuring infrastructure is 
built and operated safely.

    Question 2. Ms. Dominguez, in your response to the Committee 
questionnaire, you described a challenge facing PHMSA as ``assess[ing] 
agency legal authorities in order to develop enhanced enforcement 
capabilities.'' What enhanced enforcement capabilities do you have in 
mind and want to develop, should you be confirmed?
    Answer. PHMSA is a safety agency and our goal is to have zero 
deaths or injuries. While PHMSA has seen a decrease in the number of 
significant incidents over the last ten years, there is more work to 
do. I am committed to using all tools at our disposal--including strong 
regulations, rigorous safety inspections, outreach and education--to 
improve safety. Enforcement authorities are a critical aspect of 
preventing and deterring accidents. If confirmed, I will assess our 
enforcement capabilities and determine how PHMSA can use them more 
effectively.

    Question 3. OMB delays in reviewing proposed PHMSA regulations give 
OMB a share of the blame for missing deadlines under the 2011 Pipeline 
Safety Act. Should you be confirmed as PHMSA administrator, what will 
you do to make pipeline safety a higher priority within this 
Administration?
    Answer. During my 16 years of public service, I have worked 
extensively through the administrative, regulatory and legislative 
processes, and I have experience working with OMB and stakeholders. The 
rulemaking process is methodical, inclusive and transparent. It enables 
PHMSA to fully consider stakeholder input and to ensure that new 
regulations stand up to cost-benefit scrutiny. I believe this process 
results in meaningful rules that can be implemented. If confirmed to 
serve as PHMSA Administrator, I will work within the Department, with 
OMB and stakeholders to prioritize and complete the remaining mandates 
and recommendations.

    Question 4. Ms. Dominguez, the 2011 Pipeline Safety Act required a 
report to Congress on expanding integrity management beyond populated 
areas for natural gas transmission pipelines. This report appears to be 
a year late in terms of being completed. When will this report be 
submitted to Congress?
    Answer. PHMSA continues to raise the bar on safety as part of our 
integrity management program. PHMSA's Report to Congress regarding its 
evaluation of expanding pipeline integrity management beyond High-
Consequence Areas and whether such expansion would mitigate the need 
for gas pipeline class location requirements is currently under review, 
and I will continue to work with the Department and OMB to complete it 
by the end of the calendar year.

    Question 5. Ms. Dominguez, Congress responded to requests last year 
for more PHMSA funding by increasing PHMSA's pipeline safety budget by 
23 percent in FY 2015. Should you be confirmed, how will you as PHMSA 
Administrator ensure these funds yield tangible pipeline safety 
improvements?
    Answer. On behalf of the Department, I'd like to thank Congress for 
its support in approving the 2015 increase in funding for PHMSA. Those 
resources present PHMSA with the opportunity to grow our workforce by 
approximately 25 percent. As we bring on new staff and encounter a 
changing economy, I will assess the agency to ensure we're structured 
for success and to use the resources you have given us effectively. Of 
the 122 additional positions we are hiring for, 109 of those are in the 
pipeline area. About 80 percent of the new pipeline positions will be 
working in inspection and enforcement--the vast majority of them out in 
the field. These new inspectors and enforcement personnel will allow us 
to conduct additional inspections and training and improve enforcement 
of our regulations and standards. I will ensure we leverage these 
resources to mitigate risk, drive innovation and improve safety.

    Question 6. Ms. Dominguez, PHMSA Acting Administrator Stacy 
Cummings testified recently at a House hearing that the agency has so 
far hired about half of the 100-plus new PHMSA employees expected under 
the FY 2015 funding increase provided by Congress. Should you be 
confirmed, what will you do as PHMSA Administrator to complete this 
hiring, and what will you do to ensure that new staff is qualified, 
trained, and on the job improving pipeline safety?
    Answer. PHMSA is committed to using every available tool to hire 
qualified staff more quickly. We are leveraging existing resources and 
personnel to implement an agency-wide recruitment strategy aimed at 
removing barriers and increasing accountability within our 
organization. We are also investing in new media tools to identify 
well-qualified candidates. We are working to reduce hiring times and 
mitigate fierce industry competition for candidates with the necessary 
qualifications, by prioritizing efficiency in our hiring and offering 
incentives and other strategies to increase our hiring. We are also 
targeting professional organizations and are looking to partner with 
colleges and universities to create a pipeline of candidates interested 
in public service. As we onboard these new hires, we are developing and 
implementing a rigorous training program to ensure they are able to 
maintain the highest level of safety.

    Question 7. Ms. Dominguez, in your response to the Committee 
questionnaire, you described a challenge facing PHMSA as ``improv[ing] 
partnerships with state and local governments, the industry and other 
key stakeholders.'' Do you support joint PHMSA and industry efforts to 
improve pipeline inspection technology research and development?
    Answer. If confirmed, my priority will be to drive innovation to 
further our safety mission. PHMSA's grant programs, research and 
development forums and outreach initiatives support the development of 
new technologies and best practices that enhance safety. Thanks to 
generous congressional support, PHMSA's nearly $45 million in 
investments have contributed to 22 patent applications and 25 new 
pipeline technologies entering the market. These tools can help detect 
engineering defects, safety risks and possible incidents, and play a 
contributing role in helping us reach zero deaths and incidents. If 
confirmed, I will work to ensure that PHMSA continues to communicate 
with all stakeholders to identify and address common safety challenges.

    Question 8. Currently, PHMSA does not have regulations for natural 
gas storage facilities. In 2011, PHMSA did seek to develop a regulatory 
program for natural gas storage facilities, as part of an advanced 
notice of proposed rulemaking. In the meantime, industry has developed 
a set of safety standards for these facilities, which could be used by 
PHMSA to jumpstart the creation of a Federal safety program. Will you 
commit to getting a Federal oversight program for these facilities 
initiated during your tenure?
    Answer. PHMSA is working to improve our understanding of trends and 
innovations in our economy and energy landscape. If confirmed, I will 
continue PHMSA's work to develop regulations that provide certainty and 
reflect new standards for the design, construction and operation of 
natural gas storage facilities. I will coordinate with other Federal 
agencies to address the safety and regulatory issues related to these 
facilities.

    Question 9. Do you use an official government e-mail account for 
official business?
    Answer. Yes.

    Question 10. Do you use an alternate, alias, or other official 
account (apart from your primary official account) for official 
business?
    Answer. No.

    Question 10a. If so, is the Department's Chief FOIA Officer aware 
of this practice?
    Answer. Not Applicable.

    Question 10b. Have you ever used a non-official e-mail account for 
official business? If yes, please explain your purpose and 
justification for this practice.
    Answer. No.

    Question 10c. Have you ever used a personal, non-official device to 
send and/or receive text messages for official business? If yes, please 
explain your purpose and justification for this practice.
    Answer. No.

    Question 10d. Have you ever used any internal instant messaging 
system for official business? If so, are these messages properly 
archived?
    Answer. No. I have not used an internal instant messaging system 
for official business.

    Question 10e. Have you ever used any external instant messaging 
system, such as Google Chat, for official business? If yes, please 
explain your purpose and justification for this practice.
    Answer. No.

    Question 11. Are you aware of any other Department or 
Administration officials who use or have used non-official e-mail 
accounts and/or personal, non-official devices for official business?
    Answer. I am not aware of Department or Administration officials 
who use or have used non-official e-mail accounts for official 
business, but DOT employees are permitted to access their DOT e-mail 
accounts from personal devices through remote access solutions, 
including Outlook Web Access and Virtual Desktop Infrastructure. 
Activity is monitored/captured by the DOT system and is in line with 
all cybersecurity guidelines.

    Question 12. Are you aware of any unlawful or accidental removal, 
alteration, or destruction of electronic Federal records in the 
Department's custody or control, including e-mails? If so, has the 
Department reported these incidents to NARA? Please provide details of 
any such incidents, including the dates, number and type of records, 
and custodians involved, as well as any reports, including dates, made 
to NARA.
    Answer. No. I am not aware of any unlawful or accidental removal, 
alteration, or destruction of electronic Federal records, including e-
mails, in the Department's custody or control.

    Question 13. Are you aware of any Department employee's use of a 
private or independent e-mail server to conduct official business?
    Answer. No.

    Question 13a. If yes, who approved its use?
    Answer. Not Applicable.

    Question 13b. What was the rationale or justification for its use?
    Answer. Not Applicable.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                        Marie Therese Dominguez
    Question 1. PHMSA has established a 120-day internal time schedule 
for the processing of special permits and approvals. Other 
industrialized nations take three to four weeks. Will you commit to 
streamlining this process?
    Answer. It is my understanding that the special permits and 
approvals process has been improved in recent years, and I am committed 
to ensuring that all our processes achieve safety in an effective and 
efficient manner. PHMSA is working to complete regulatory proposals 
that will incorporate a large number of special permits into 
regulations, expand the standard operating procedures in the 
regulations, reduce redundant approval procedures, and streamline the 
special permit process.

    Question 2. One of the bottlenecks to the efficient processing of 
explosives classification approvals is the re-examination of the 
classification recommendations from PHMSA-approved labs of the 
thousands of applications submitted annually. Currently, PHMSA has 
approved five labs to perform this task. Has PHMSA considered 
committing resources to oversee the operations of the five-approved 
labs so that their classifications recommendations could be accepted 
without reexamination?
    Answer. As I look to assess the organization to determine 
opportunities for efficiency, I am aware that PHMSA has, through 
rulemaking, authorized Fireworks Certification Agencies (FCA) to act as 
third-party laboratories to certify new consumer fireworks. As a 
result, there are six FCAs that have helped improve PHMSA's efficiency 
in processing firework applications. Moving forward, as we continue to 
assess the organization and our processes, we will look for additional 
efficiencies in this area.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                        Marie Therese Dominguez
    Question 1. The 2011 Pipeline Safety Act had 42 obligations for 
PHMSA to complete. It's my understanding that there are 16 still 
outstanding. If confirmed, you will be taking on these obligations. 
What is the specific reasoning for this lack of completion? How much 
time will you need to complete these remaining items?
    Answer. To date, PHMSA, in coordination with the Department, has 
completed 26 of the 42 mandates in the 2011 Pipeline Safety Act. 
Completing all congressional mandates is critical to PHMSA's pipeline 
safety program because it allows us to meaningfully strengthen our 
oversight program. PHMSA is diligently pursuing closure of the 
remaining mandates and has made significant progress.
    In the past month alone, in coordination with the Department and 
OMB, PHMSA issued two notices of proposed rulemaking on incident 
notification requirements for pipeline operators and operator 
qualifications, and the expansion of excess flow valve requirements. 
Two of PHMSA's highest rulemaking priorities, the notices of proposed 
rulemaking titled ``Safety of Gas Transmission Pipelines'' and ``Safety 
of Hazardous Liquid Pipelines,'' address a number of the remaining 
mandates and will be published by the end of the year.
    PHMSA will address several mandates and actions through additional 
rulemakings that are already in progress and reports to Congress that 
are currently under review or edit. Report topics include integrity 
management and class location, CO<INF>2 </INF>pipelines, and non-
petroleum hazardous liquid transportation. PHMSA will address the 
remaining mandates and actions through future regulatory activities and 
possible information collection activities, which will be advanced over 
the course of the next 18 months.
    A more complete status report, which includes the most recent 
actions taken on each mandate, is available on PHMSA's homepage at 
http://phmsa.dot.gov/pipeline/psa/phmsa-progress-tracker-chart.

    Question 2. Please list the pending rules from PHMSA and the 
expected completion date for each.
    Answer.

------------------------------------------------------------------------
         PHMSA Rulemakings                 Status (as of 8/3/2015)
------------------------------------------------------------------------
Hazardous Materials: Enhanced Tank   Final rule announced by Secretary
 Car Standards and Operational        Foxx on 5/1/2015. Final rule
 Controls for High-Hazard Flammable   published in the Federal Register
 Trains                               on 5/8/2015. Received five appeals
                                      to date.
------------------------------------------------------------------------
Pipeline Safety: Enforcement of      Final rule published July 23, 2015
 State Excavation Damage Laws
------------------------------------------------------------------------
Hazardous Materials: Reverse         Final Rule publication anticipated
 Logistics                            in August 2015.
------------------------------------------------------------------------
Hazardous Materials: Miscellaneous   Final Rule scheduled for
 Amendments                           publication in November 2015.
------------------------------------------------------------------------
Hazardous Materials: Requirements    Final rule publication anticipated
 for the Safe Transportation of       in August 2015.
 Bulk Explosives
------------------------------------------------------------------------
Hazardous Materials: Special Permit  Final Rule in formal concurrence;
 SOP and Evaluation                   scheduled for publication in
                                      September 2015.
------------------------------------------------------------------------
Hazardous Materials: Corrections     Publication of Final Rule
 Rulemaking                           tentatively scheduled for
                                      September 2015.
------------------------------------------------------------------------
Hazardous Materials: Special Permit  Final Rule scheduled for
 Incorporation                        publication by October 2015.
------------------------------------------------------------------------
Pipeline Safety: Issues related to   NPRM published May 21, 2015;
 the Use of Plastic Pipe in Gas       comment period ended 7/31/2015
 Pipeline Industry
------------------------------------------------------------------------
Pipeline Safety: Excess Flow Valves  NPRM published July 15, 2015;
 In Applications Other Than Single-   comment period ends September 14,
 Family Residences in Gas             2015
 Distribution Systems
------------------------------------------------------------------------
Pipeline Safety: Operator            NPRM published July 10, 2015;
 Qualification, Cost Recovery,        comment period ends September 8,
 Accident and Incident                2015
 Notification, and Other Changes
 (RRR)
------------------------------------------------------------------------
Pipeline Safety: Safety of On-Shore  Under OMB review; expect to publish
 Liquid Hazardous Pipelines           NPRM by end of 2015
------------------------------------------------------------------------
Pipeline Safety: Gas Transmission    Under OMB review; expect to publish
                                      NPRM by end of 2015
------------------------------------------------------------------------
Hazardous Materials: ASME Code       Supplemental NPRM (SNPRM) is
                                      tentatively scheduled for August
                                      2015. SNPRM is currently under
                                      review.
------------------------------------------------------------------------
Hazardous Materials: Cylinder        NPRM publication scheduled
 Petitions                            September 2015.
------------------------------------------------------------------------
Hazardous Materials: Oil Spill       NPRM under Agency review; expected
 Planning and Information Sharing     publication November 2015.
 for High-Hazard Flammable Trains.
------------------------------------------------------------------------
Hazardous Materials: Wetlines        Under Agency review; expected
                                      publication November 2015.
------------------------------------------------------------------------
Hazardous Materials: Notification    Publication of NPRM tentatively
 of the Pilot in Command and          scheduled for November 2015.
 Response to Air related Petitions
 for Rulemaking
------------------------------------------------------------------------
Hazardous Materials: Response to     Publication of NPRM tentatively
 Petitions for Rulemaking             scheduled for November 2015.
------------------------------------------------------------------------
Hazardous Materials: Review and      Drafting NPRM; expected publication
 Update of Rail Carrier Regulations   December 2015.
 in Part 174
------------------------------------------------------------------------
Pipeline Safety: Amendments to       NPRM in development; expected to
 Parts 192 and 195 to require Valve   publish Feb. 2016
 installation and Minimum Rupture
 Detection Standards
------------------------------------------------------------------------

    Question 3. API recently released Recommended Practice 1173, 
Pipeline Safety Management Systems. I understand PHMSA participated in 
the development of this Recommended Practice. What is your view of the 
role safety management systems have in pipeline operations and your 
view of this guidance for the industry?
    Answer. Safety is our priority, and Safety Management Systems (SMS) 
promote a higher level of safety by encouraging operators to enhance 
their safety cultures. Safety Management Systems have improved safety 
performance in a variety of industries, including aviation, nuclear and 
healthcare. I believe SMS can help drive necessary improvements to 
pipeline safety in the U.S.

    Question 4. It's my understanding that with respect to the 
regulation of small-scale natural gas facilities, PHMSA is currently 
using standards that are more than a decade old. These standards, 
updated several time since 2001 by the same standard setting group 
(National Fire Protection Association), are slowing the construction of 
facilities designed to supply LNG as a fuel. Do you believe that PHMSA 
should base its regulatory regime on the most up to date standards?
    Answer. I believe that PHMSA's regulations must keep pace with 
innovation, and, if confirmed, ensuring that the agency is predictive 
and innovative will be a top priority for me. PHMSA is working to 
develop regulations that provide certainty for the design, construction 
and operation of LNG facilities and reduce the need for special 
permits. To expedite the rulemaking process, PHMSA is focusing on 
updating outdated codes and standards in current regulations.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Steve Daines to 
                        Marie Therese Dominguez
    Question 1. As we previously discussed, Montana produces 63 billion 
cubic feet of natural gas annually. Additionally, we have another 590 
billion cubic feet of natural gas reserves. With natural gas as the 
most widely used energy source to heat homes during cold Montana 
winters, nearly 54 percent of households, it is important to streamline 
its production.
    I have heard that PHMSA has told businesses that special permits, 
waivers, or equivalency determinations are needed to build small-scale 
LNG facilities that seek to use the latest technologies for design, 
construction, and operation. As the Administrator of PHMSA, what 
initiatives will you lead to keep up with safety technology innovation 
and advances, to reduce the need for special permits and decrease 
regulatory uncertainty?
    Answer. PHMSA is working to improve its understanding of trends and 
innovations in our economy and energy landscape in order to improve 
regulations for design, construction, and operation of LNG facilities 
and reduce the need for special permits. If confirmed, I will work to 
advance PHMSA's research efforts to be more predictive and position 
PHMSA to drive innovation.

    Question 2. The Energy Information Administration (EIA) recently 
noted crude by rail delivered in the U.S. and from Canada to the U.S. 
exceeded 1 million barrels per day in 2014. EIA also predicts U.S. 
crude oil production will grow by another 1 million barrels per day by 
2020. Unless we want to double the number of crude by rail cars 
currently traveling across America to meet this new production 
forecast, we need to build more pipelines. How will you as PHMSA 
Administrator support the construction and safe operation of new crude 
oil pipelines?
    Answer. We have a renaissance in energy that has resulted in a 
significant increase in new gas and liquid pipeline construction 
projects over the last decade. PHMSA's pipeline safety regulations 
require pipeline operators to evaluate newly constructed pipelines to 
check for issues that could affect a pipe's overall ability to operate 
safely prior to placing the pipeline in service. Although PHMSA does 
not have a role in approving permits for pipelines, it does have safety 
oversight for the design, construction and operation of approved 
pipelines. If confirmed, I will make sure that PHMSA inspects and 
monitors any newly approved pipeline throughout the construction and 
testing phase, and into its operational life.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Edward Markey to 
                        Marie Therese Dominguez
    Question 1. In the 2011 reauthorization of the Pipeline Safety Act, 
Congress doubled the fines that could be levied against pipeline 
operators who violate regulations to a maximum of $200,000 per incident 
per day with a maximum for related violations of $2 million. However, 
for large oil and gas and pipeline companies, these fines still amount 
to nothing more than a slap on the wrist. For instance, for its 2013 
spill of 5,000 barrels of tar sands crude in Arkansas, Exxon was fined 
$2.7 million, in a year in which it made $32.6 billion in profits. 
These penalties need to be real financial deterrents. Ms. Dominguez, 
would you agree that the maximum fines PHMSA can levy against companies 
who violate the law need to be at a level where they are sufficient 
financial deterrents?
    Answer. PHMSA currently has many tools available to improve safety 
following a pipeline incident, including Corrective Action Orders, 
civil penalties, and judicial actions. Corrective Action Orders can be 
very costly to an operator--they can last weeks and even years, and 
often compel the operator to make system-wide investments that improve 
safety. PHMSA also actively supports Department of Justice and 
Environmental Protection Agency investigations, which also may involve 
significant sanctions and penalties.
    For hazardous materials violations, the GROW AMERICA Act would 
increase the maximum civil penalty amount from $75,000 to $250,000; or 
for a violation that results in death, serious illness, or severe 
injury to any person or substantial destruction of property, from 
$175,000 to $500,000. (Section 6011). It also would give PHMSA 
additional tools to stop unsafe conditions or practices that may cause 
an emergency situation involving a threat to life, personal injury, or 
harm to property or the environment.
    If confirmed, I will assess our enforcement capabilities and 
determine how PHMSA can use them more effectively.

    Question 2. Ms. Dominguez, PHMSA has continued to refuse to provide 
my staff with unredacted copies of the pipeline oil spill response 
plans that ExxonMobil had submitted for its pipeline in Arkansas that 
ruptured as well as for Plains Pipeline's Line 901 that recently 
spilled oil in Santa Barbara. In fact, a more complete version of 
Plains' spill response plan was even provided to news agencies by state 
regulators while PHMSA continued to withhold it from Congress.
    It is imperative that Congress has the ability to review these 
documents so that we can conduct proper oversight of these programs. In 
withholding these spill response plans, PHMSA has cited exemptions 
under the Freedom of Information Act, which do not apply to Congress. 
Will you commit to providing my staff with unredacted or more complete 
versions of the oil spill response plans for ExxonMobil's Arkansas 
spill and the recent Plains Pipeline Santa Barbara spill?
    Answer. I am committed to ensuring PHMSA's transparency and 
communication with all our partners and stakeholders, and with Congress 
in particular. My understanding is that, consistent with U.S. 
Department of Transportation policy, PHMSA will provide certain 
unredacted documents upon a request of the chair of a congressional 
committee or subcommittee with jurisdiction over that issue. I will 
continue to work with the Department to ensure that PHMSA provides 
information to our partners in Congress.

    Question 3. Ms. Dominguez, aging, leaking natural gas distribution 
pipelines cost consumers billions of dollars, contribute to global 
warming and pose a threat to public health and the environment. In 
fact, according to a report issued by my staff, over the last decade, 
consumers have paid roughly $20 billion over the last decade for gas 
that they may have never received. The Administration's Quadrennial 
Energy Review called for addressing our Nation's old, leaking natural 
gas pipeline infrastructure. Do you agree that this is an issue that we 
should seek to address?
    Answer. Safety is PHMSA's top priority. Our mission is to protect 
people and the environment from the risks of hazardous materials 
transportation. We achieve our mission by ensuring infrastructure is 
built and operated safely. We also collaborate with our Federal 
partners on initiatives in the energy sector, such as the Quadrennial 
Energy Review, to further promote safety. If confirmed, I look forward 
to working with you and with our State partners to continue to address 
aging infrastructure and prevent pipeline failures.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Joe Manchin to 
                        Marie Therese Dominguez
    Question 1. I am interested in the Pipeline and Hazardous Materials 
Safety Administration's (PHMSA) role in the construction of small-scale 
liquefied natural gas (LNG) facilities which play an increasingly 
important role in creating a fueling network to meet growing market 
demands. I understand that operators of these facilities have asked 
PHMSA to update their regulations governing small liquefaction plants 
to reflect technological advances that improve safety, but I still hear 
reports of a one-size-fits-all regulatory regime that does not 
accurately address the dramatic changes we have seen in this industry 
over the past few years.
    Do you believe the current standards for small-scale LNG facilities 
are up-to-date and risk-based, and, if not, what would you do if 
confirmed to address this issue?
    Answer. I believe that PHMSA's regulations must keep pace with 
innovation, and ensuring that the agency is predictive and innovative 
will be a top priority for me. PHMSA's current regulations provide for 
the safe design and operation of both small-scale and larger facilities 
and apply to all LNG facilities that fall within PHMSA's jurisdiction. 
PHMSA is working to update outdated codes and standards in current 
regulations and to make revisions to provide certainty for the safe 
design, construction and operation of LNG facilities.

    Question 2. Can you describe how PHMSA interacts with state 
governments when they share enforcement authority over critical 
projects and facilities?
    Answer. A key element of pipeline safety is the partnership we 
enjoy with our state partners. As Federal regulators, we set the 
minimum safety standards for all pipelines. In turn, we depend on state 
public utility commissions, which we support through grants, 
certification and training, to inspect and enforce these regulations 
for about 80 percent of the pipeline mileage in the U.S. Although PHMSA 
has granted some states the authority to inspect interstate pipelines, 
PHMSA has sole authority to enforce its regulations against interstate 
pipeline operators. States are often responsible both for inspections 
and for enforcing minimum Federal safety standards for intrastate 
pipelines. We greatly respect the role of the states in achieving 
safety, but we also must ensure that each state is enforcing Federal 
regulations. Congress has authorized PHMSA to set safety standards for 
the Nation's entire pipeline system.

    Question 3. Could PHMSA responsibly reduce overhead expenditures 
and the overall cost to taxpayer by better leveraging existing 
partnerships with state agencies?
    Answer. As Administrator, I will assess PHMSA to ensure we are 
structured for success and are using the resources granted to us by 
Congress wisely and efficiently. In addition, I will work to strengthen 
our relationships with all our stakeholders, including our state 
partners, to enhance safety.

    Question 4. West Virginia is at the center of natural gas 
development in the United States, and the single most common refrain I 
hear from the industry is the need for clear, straightforward safety 
regulations. If confirmed, one of your first orders of business will be 
to update and expand the ``integrity management'' rules that help 
ensure finite resources are focused in the places near communities and 
critical habitat that would be most impacted by a pipeline failure. I 
think transparency and cost-benefit analyses are easy ways to regain 
peoples' trust and give the industry the stability they need to make 
investments.
    How do you plan on moving forward with the new ``integrity 
management'' rules, and when will the public be able to see this data?
    Answer. PHMSA's Report to Congress evaluating expanding pipeline 
integrity management beyond ``High Consequence Areas'' is currently 
under review, and I will continue to work with the Department and OMB 
to complete it by the end of this calendar year. We're working to 
improve integrity management with two of PHMSA's highest rulemaking 
priorities, the notices of proposed rulemaking titled ``Safety of Gas 
Transmission Pipelines'' and ``Safety of Hazardous Liquid Pipelines,'' 
which will be published by the end of the year as well.

    Question 5. Will you include a cost-benefit analysis in the updated 
rules to ensure that this is a wise investment that improves safety?
    Answer. Yes, as with all rules proposed by PHMSA, those on gas 
transmission and hazardous liquid pipelines will include an analysis of 
the costs and the benefits. The rulemaking process is methodical, 
inclusive and transparent. It enables PHMSA to fully consider 
stakeholder input and to ensure that new regulations stand up to cost-
benefit scrutiny. I believe this process results in meaningful, 
implementable rules. As PHMSA Administrator, I will work within the 
Department, with OMB and with stakeholders to complete rulemakings that 
improve safety in a manner that accounts for the costs and the 
benefits.

                                  [all]

                  This page intentionally left blank.
</pre></body></html>
